                               Semiannual
                         Report to Congress
                           October 1, 2007 – march 31, 2008




Office of Inspector General
U.S. Department of Transportation
Table of Contents

From the Inspector General .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . v
Top Management Challenges Facing DOT . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
Audits and Investigations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
    Aviation and Special Programs . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
    In Focus: Actions Needed To Improve Runway Safety . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
    Highway and Transit Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 17
    In Focus: Exposing Fraud in Boston’s Central Artery/Tunnel Project  .  .  .  .  .  .  .  . 17
    Rail and Maritime Programs and Economic Analysis . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 31
    Financial and Information Technology . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 35
    Acquisition and Procurement .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 39
    Department-Wide Issues .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 41
Work Planned and in Progress .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 45
    Aviation and Special Programs . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                            45
    Highway and Transit Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                               47
    Rail and Maritime Programs and Economic Analysis . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                                                     48
    Financial and Information Technology . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                          49
    Acquisition and Procurement .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                          51
Statistical Performance Data .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 53
    Summary of Performance  . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                      53
    Audits .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .   54
    Completed OIG Reports . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                  54
    OIG Reports with Recommendations that Questioned Costs  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                                                                  55
    OIG Reports with Recommendations that Funds Be Put to Better Use .  .  .  .  .  .  .                                                                                                                 56
    OIG Reports Recommending Changes for Safety, Economy, or Efficiency  .  .  .  .                                                                                                                      57
    Management Decisions Regarding OIG Recommendations . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                                                                  58
    OIG Published Reports . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                               59
    Other Audit Work Products  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                        66
    Office of Inspector General Congressional Testimonies  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                                                    68
    Unresolved Recommendations Over 6 Months Old .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                                                  69
    Application of Audit Project Hours by Operating Administration .  .  .  .  .  .  .  .  .  .  .                                                                                                       72
    Investigations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                73
    Judicial and Administrative Actions .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                    73
    Profile of All Pending Investigations as of March 31, 2008 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                                                      74
    Application of Investigative Project Hours by Priority Area . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                                                         74
    Application of Investigative Project Hours by Operating Administration . .  .  .  .                                                                                                                  75
2007 Awards and Recognition .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                                               77
In Memoriam .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                  94
Mission and Organization .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                                         95
Contacts .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                      97
Abbreviations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                99




		 iii
                               From the Inspector General


I
    t is my pleasure to present the Department of Transportation Office of Inspector General’s Semiannual
    Report to Congress for the 6-month period ending March 31, 2008. The significant audit and
    investigative activities described in this report clearly demonstrate the outstanding performance and
commitment to excellence exhibited by OIG employees as we continue to support and assist DOT in
achieving its mission of providing fast, safe, efficient, and convenient transportation for the United States.

We provided audits on areas such as DOT’s FY 2008 Top Management Challenges; NHTSA’s oversight
of state highway programs and controls over the National Driver Register; the NAFTA cross-border
trucking demonstration project; FAA’s oversight of aircraft manufacturers’ domestic and foreign part
suppliers, and implementation of runway status lights; and numerous financial statement audits for
various DOT operating administrations including the DOT’s consolidated financial statements. Our
investigative activities this reporting period concentrated on a variety of fraudulent activities in the
areas of Commercial Drivers’ Licenses, Disadvantaged Business Enterprise contracts, aircraft parts,
construction grants and contracts including bid-rigging.

During this semiannual period, we issued 48 reports with 174 recommendations, including financial
recommendations totaling $122,690,000. Our investigative work resulted in 65 convictions and a total of
$527,624,733 in fines, restitutions, and recoveries.

We testified before Congress on 7 occasions covering important topics including top challenges facing
DOT in FY 2008; NAFTA cross-border trucking demonstration project; NHTSA’s drunk driving
program; and FAA’s runway safety, key funding issues, Automatic Dependent Surveillance Broadcast
Program, and conversion of flight service stations to contract operations.

We want to recognize the contributions of our former Deputy Inspector General, Todd Zinser, who was
appointed Inspector General at the Department of Commerce this past December after 16 years of service
at DOT/OIG. During his tenure, Todd demonstrated leadership and direction that advanced the success of
the DOT/OIG and enhanced our standing within the Inspector General community. He played a critical
role in the development of almost every significant report issued and congressional testimony delivered by
OIG. He also had a hand in the direction and outcome of our major and most sensitive investigations. His
analytical skills and his institutional savvy were integral components of every single OIG work product.
Todd set the highest professional and personal standards for our staff, while always holding himself to
those same standards. We will miss the vision and wisdom that Todd brought to every aspect of our work
and wish him all the best in his new position.

In addition, we honor the life and public service of David Brown, a long-time staff member who passed
away during this reporting period. David gave 19 years to our office and played a key role in many audit
successes. He will be greatly missed.

	                                                                          Letter from the Inspector General	   v
Finally, I would like to express my appreciation to Secretary Peters, Deputy Secretary Barrett, the
Department’s Secretarial officers, the modal administrators, and Members and staff of Congress for their
continued and steady support of our mission and responsiveness to our recommendations to strengthen
safety, improve program delivery, and maximize efficiency in DOT operations to ensure American
taxpayers have a world-class transportation system.



Very Respectfully,



Calvin L. Scovel III




vi	 Semiannual Report to Congress
Top Management Challenges Facing DOT
We recently issued our ninth annual report
identifying the nine top management challenges                      FY 2008 Top Management
that face DOT in FY 2008. In his October 18, 2007,                        Challenges
testimony, the Inspector General focused on
several top challenges that crosscut transportation         	Continuing To Enhance Oversight To Ensure the Safety of an
modes, including safety, congestion, and funding.             Aging Surface Transportation Infrastructure and Maximize the
We believe that the traveling public’s growing                Return on Investments in Highway and Transit Infrastructure
                                                              Projects
concerns about aging transportation infrastructure
                                                            	Addressing Long- and Short-Term Challenges for Operating,
and increasing air travel delays will continue                Maintaining, and Modernizing the National Airspace System
to demand special attention from DOT. Key                   	Developing a Plan To Address Highway and Transit Funding
actions will include balancing funding needs with             Issues in the Next Reauthorization
initiatives to reduce congestion and determining            	Reducing Congestion on America’s Transportation System
requirements to advance new technologies and                	Improving Oversight and Strengthening Enforcement of
improve oversight structures.                                 Surface Safety Programs
                                                            	Continuing To Make a Safe Aviation System Safer
Continuing To Enhance Oversight To Ensure                   	Strengthening the Protection of Information Technology
the Safety of an Aging Surface Transportation                 Resources, Including the Critical Air Traffic Control System
Infrastructure and Maximize the Return                      	Managing Acquisition and Contract Operations More
on Investments in Highway and Transit                         Effectively To Obtain Quality Goods and Services at
                                                              Reasonable Prices
Infrastructure Projects
                                                            	Reforming Intercity Passenger Rail

Recent fatal highway incidents highlight the need
for the Department to focus on the safety of the
Nation’s surface transportation infrastructure,          Addressing Long- and Short-Term Challenges
particularly for aging tunnels and bridges needing       for Operating, Maintaining, and Modernizing
costly rehabilitation, repair, or replacement. DOT’s     the National Airspace System
challenge will be to balance funding needs for
projects to repair or replace aging infrastructure       Over the last year, Congress, the FAA, and others
with projects to expand capacity and reduce              have debated how best to finance FAA, reauthorize
congestion. Continued management emphasis will           a wide range of aviation programs, and advance
be needed in two key areas: (1) targeting oversight      the Next Generation Air Traffic Management
actions to ensure the safety of tunnels and bridges,     System (NextGen). While there is disagreement
and (2) ensuring that major highway and transit          over how to finance FAA, there is general
projects are finished efficiently and cost-effectively   consensus that FAA must fundamentally change
to maximize the return on Federal infrastructure         how air traffic is managed to meet forecasted air
dollars.                                                 travel demands. DOT’s and FAA’s challenges in
                                                         operating and maintaining the current airspace
                                                         system while developing and implementing
                                                         NextGen include (1) hiring and training enough
                                                         air traffic controllers to offset the surge in
                                                         retirements; (2) keeping existing modernization

	                                                                       Top Management Challenges Facing DOT	                1
projects on track; (3) reducing cost, schedule, and    projects on schedule to relieve congestion and
technical risks with NextGen; (4) maintaining          delays; (3) leading stakeholders who have divergent
FAA’s aging air traffic control facilities; and        views on resolving transportation congestion; and
(5) properly accounting for capital investment         (4) meeting demands for additional resources in a
projects.                                              tight budget environment.

Developing a Plan To Address the Highway               Improving Oversight and Strengthening
and Transit Funding Issues in the Next                 Enforcement of Surface Safety Programs
Reauthorization
                                                       Safety is central to DOT’s mission, and the Federal
DOT faces two significant challenges related to        Motor Carrier Safety Administration, the National
funding the Federal highway program. First, it         Highway Traffic Safety Administration, and the
must decide how to address the Highway Trust           Federal Railroad Administration all have extensive
Fund’s (HTF) growing revenue shortfalls. To deal       regulatory authority and safety programs. The
with the estimated 12-percent annual funding           number of fatalities declined in 2006, as did
increases (in constant dollars) needed to maintain     the rate of fatalities per 100 million vehicle-
the Nation’s highways and bridges, DOT must            miles traveled (1.42). DOT’s goal is to reduce the
work with the States, the highway community,           fatality rate to 1.0 by 2011. While achieving this
and Congress to develop a consensus on if, and         goal will clearly be a challenge, DOT can better
how, the HTF revenue shortfall will be regained.       meet it by (1) further reducing railroad collisions
Second, in preparation for the upcoming surface        and fatalities through more safety oversight,
transportation reauthorization bill, DOT must          (2) improving state accountability in programs for
decide what funding levels it will propose for         reducing alcohol-impaired driving, (3) resolving
highway and transit programs and how those             hours-of-service rules for commercial drivers,
funding levels will be financed.                       (4) countering fraud in the commercial drivers’
                                                       license program, (5) closely monitoring Mexican
Reducing Congestion in                                 motor carriers operating throughout the United
America’s Transportation System                        States under DOT’s demonstration project, and
                                                       (6) improving motor carrier safety with more
DOT has launched a national strategy to reduce         complete information on vehicle crashes and
congestion across all modes of transportation.         stronger enforcement against repeat violators.
Congestion wastes billions of gallons of fuel and
costs billions of dollars in lost productivity each    Continuing To Make a Safe Aviation System Safer
year. Although DOT has made progress on several
congestion-related initiatives, the new strategy was   For more than 5 years, FAA and the U.S. aviation
developed before the year’s overwhelming air travel    industry have experienced one of the safest periods
problems occurred. Airline customers encountered       in history—even as the industry was undergoing
record-breaking flight delays and cancellations,       dramatic changes. However, the 2006 crash of
while forecasted air travel demands promised to        Comair Flight 5191 in Lexington, Kentucky, serves
continue straining the system’s capacity. DOT’s        as a reminder that more must be done to make
key challenges in this area include (1) reducing       a safe system even safer. FAA’s key challenges
aviation delays, improving customer service,           in this area are (1) taking proactive steps to
and meeting near-term demand for air travel;           improve runway safety in light of recent serious
(2) keeping planned infrastructure and airspace        incidents; (2) ensuring consistency and accuracy

2	   Semiannual Report to Congress
in reporting and addressing controller operational         Managing Acquisition and Contract Operations
errors; (3) strengthening risk-based systems for           More Effectively To Obtain Quality Goods
external repair facilities, air carriers, and aircraft     and Services at Reasonable Prices
manufacturers; (4) maintaining a sufficient
number of inspectors with the right skills in the
                                                           Ensuring that procurement and acquisition
right locations to oversee a dynamically changing
                                                           activities are conducted efficiently and effectively
aviation industry; and (5) strengthening oversight
                                                           and protecting taxpayer dollars from fraud and
of the Airman Medical Certification Program. The
                                                           abuse are Government-wide priorities. With an
urgency in addressing these issues is underscored by
                                                           annual procurement budget of about $5.6 billion,
recent events at Southwest Airlines that brought to
                                                           DOT must place more attention on acquisition and
light serious lapses in FAA’s oversight of air carriers.
                                                           contract operations. We continue to find weaknesses
Strengthening the Protection of Information                throughout DOT, and our investigations continue
                                                           to identify fraud, abuse, and other ethical issues
Technology Resources, Including the Critical
                                                           involving DOT officials and contractors. Last year,
Air Traffic Control System                                 we established an audit group to help improve
                                                           contract and acquisition practices throughout DOT.
DOT’s move to a new headquarters building                  While its agencies are cooperating to eliminate
presented various information technology                   problems as they arise and improve oversight,
(IT) challenges during the year. While DOT                 DOT must be more proactive in the following areas:
has completed most of its scheduled security               (1) increasing incurred-cost audits of procurement
recertification reviews, the overall effectiveness         contracts to reduce unallowable charges,
of its information security program declined               (2) developing strategies for the future acquisition
because management had to divert resources to              workforce, (3) fostering high ethical standards
move-related issues. Along with establishing a new         throughout DOT and its contracting programs to
common IT infrastructure, DOT had to review,               maintain public trust, and (4) enhancing oversight
test, and certify security protection in over half of      on Federal-aid construction projects to prevent
its information systems to meet the recertification        abuse in contractor quality control programs.
requirement, as well as correct security weaknesses
previously identified in the critical air traffic          Reforming Intercity Passenger Rail
control system. To strengthen protection over
IT resources, DOT will need to focus continued             Intercity passenger rail is an integral part of
management attention on the following areas:               our Nation’s transportation system, particularly
(1) enhancing air traffic control system security and      in light of growing highway and aviation
continuity planning, (2) testing and strengthening         congestion. However, Amtrak’s contribution to the
the information system security program at DOT             transportation system may be limited by its capital
Headquarters, (3) ensuring the timeliness of data          funding needs, which may be difficult to meet given
recording and protection of personally identifiable        constrained Federal resources. Therefore, DOT
information when interfacing with non-Federal              must use all of the tools at its disposal, including
systems, and (4) continuing to enhance oversight of        seeking consensus on a reauthorization, to ensure
information technology investments.                        that Amtrak reduces its operating costs and
                                                           improves its operating performance, thereby freeing
                                                           funds for Amtrak’s capital needs and increasing its
                                                           viability as a transportation alternative.


	                                                                     Top Management Challenges Facing DOT	   3
                                                                    Audits and Investigations

Aviation and Special Programs




In Focus: Actions Needed To Improve Runway Safety



O
          n February 13, 2008, we testified on runway          reaching a high of 370 in FY 2007—a 12-percent
          safety before the House Subcommittee on              increase over FY 2006 (see figure).
          Aviation. Our testimony focused on actions
needed to prevent runway incursions, defined as any
incident involving an unauthorized aircraft, vehicle,                              RUNWAY INCURSIONS
or person on a runway.1 Because runway incursions                                   FY 1999 to FY 2007
can be caused by controllers, pilots, or ground                  FY 1999                                  329
vehicles, responsibility for their prevention falls on                                                          405
all users of the National Airspace System—FAA,                   FY 2001                                        407
airlines, and airport operators.                                                                           338
                                                                 FY 2003                                  323
    FAA took actions to address the surge in                                                              326
runway incursions that occurred between fiscal                   FY 2005                                  327
year (FY) 1999 and FY 2001. These included                                                                330
establishing regional runway safety offices and                  FY 2007                                      370
initiating aggressive educational programs for                                 0     100   200      300      400      500
pilots. The number of runway incursions then
                                                                 Source: FAA
declined but began climbing again after 2003,

1. Effective October 1, 2007, FAA began categorizing runway incursions using the International Civil Aviation Organization
definition. The new definition of runway incursions includes incidents that were previously defined by FAA as “surface
incidents” (where a potential conflict did not exist).

	                                                                          Actions Needed to Improve Runway Safety	      5
Audits and Investigations (continued)

   While the most serious incidents decreased               During the first 3 months of FY 2008, there
from a high of 69 in FY 1999 to a low of 24 in          were 10 serious runway incursions. If that rate
FY 2007, very serious close calls continue to occur.    continues, there could be 40 serious runway
                                                        incursions before the end of FY 2008, which would
•	 O
    n December 2, at Baltimore Washington              be the highest level in 6 years. We have identified
   International Airport, a controller cleared          four specific areas where FAA and other aviation
   a Comair aircraft for take-off while also            users should focus runway safety efforts.
   clearing an America West aircraft to land on
   an intersecting runway. The Comair aircraft          Implementing Existing and New
   passed in front of the landing aircraft by about     FAA Systems to Improve Runway Safety
   150 feet at the runway intersection.
                                                        Many see new technology as a key runway safety
•	 O
    n July 19, at Chicago O’Hare International
                                                        solution. However, we have reviewed three major
   Airport, a United Airlines aircraft exited the
                                                        FAA technologies for improving runway safety
   wrong taxiway and taxied directly under an
                                                        and are concerned about what can be effectively
   arriving US Airways aircraft. Although the
                                                        deployed within the next several years.
   controller instructed the US Airways aircraft
   to go around and then re-attempt the landing,        •	 Airport Surface Detection Equipment-
   it overflew the nose of the United aircraft by          Model-X (ASDE-X)—a ground surveillance
   about 50 to 70 feet.                                    system intended to alert controllers to potential
                                                           ground collisions. In October,2 we reported
                                                           that the program may not meet its goals to
                                                           commission all 35 systems for $549.8 million
                                                           by 2011 or achieve all planned safety benefits.
                                                           Safety benefits at risk include maintaining
                                                           operational capability during inclement
                                                           weather and alerting controllers to possible
                                                           collisions on intersecting runways and
                                                           taxiways (“hot spots” for runway incursions).

                                                        •	 Runway Status Lights (RWSL)—automated,
                                                           surveillance-driven lights that alert pilots
                                                           in departing or crossing aircraft that the
                                                           runway is occupied, thus decreasing the
                                                           potential for pilot deviations. In January, we
                                                           reported3 that RWSL is a viable technology
                                                           for reducing runway incursions. At the test
                                                           airport for RWSL, the system met or exceeded
                                                           all performance expectations. However, RWSL
                                                           is still in the early stages, and much work
                                                           remains for FAA to achieve full deployment.

2. OIG Report Number AV-2008-004, “FAA Needs To Improve ASDE-X Management Controls To Address Cost Growth,
Schedule Delays, and Safety Risks,” October 31, 2007.
3. OIG Report Number AV-2008-021, “FAA’s Implementation of Runway Status Lights,” January 14, 2008.

6	   Semiannual Report to Congress
•	 Automatic Dependent Surveillance-Broadcast             data, (2) deploy improved airport signage and
   (ADS-B)—a satellite-based technology that             markings at the 75 busiest, medium- to large-
   allows aircraft to broadcast their position to         sized airports (before the June 2008 deadline),
   other aircraft and ground systems. When                and (3) review cockpit and air traffic clearance
   ADS-B data are displayed in the cockpit, the           procedures.
   pilot can function as a “second set of eyes”
   to detect hazardous surface situations. We             Reinvigorating FAA’s National
   testified in October,4 however, that the ADS-B         Program for Improving Runway Safety
   ground infrastructure will not be in place until
   2013, and users will not be required to equip          After FAA took action in response to the FY 1999–
   with the needed avionics until 2020. FAA still         FY 2001 surge in runway incursions, incursions
   does not have a clear transition path for ADS-B.       decreased from a high of 407 in FY 2001 to a low
                                                          of 323 in FY 2003. However, during our review at
Making Airport-Specific                                   four major airports, we found that many important
Infrastructure and Procedural Changes                     national initiatives for promoting runway safety
                                                          (some undertaken as early as 2000) had waned as
The uncertain timeline and emerging risks of FAA’s        the number of incidents declined and FAA met its
runway safety technologies underscore the need            overall goals for reducing runway incursions.
for other near-term solutions. In May, we reported
on runway safety efforts at four airports that had             For example, FAA established the Runway
experienced a surge in runway incursions. All four        Safety Office in 2001 to provide central oversight
airports—Boston, Chicago, Philadelphia, and               and accountability for runway safety initiatives
Los Angeles—had made relatively low-cost, simple          throughout the Agency. However, at the time of
changes to their infrastructure and procedures that       our review, that office had not had a permanent
could help to reduce the risk of runway incursions.       director for almost 3 years. In addition, the office
These included improving airport lighting, adding         has been reorganized twice since 2004, and its staff
better signage, and improving runway and taxiway          reduced by half. FAA also no longer prepares its
markings (before FAA’s June 2008 deadline).               National Plan for Runway Safety, which defined
In addition, the airport operators and FAA                its strategy to reduce runway incursions. The last
managers began tightly controlling the testing and        time FAA prepared this plan was in 2002. FAA has
certification of airfield drivers.                        since hired a permanent director for its Runway
                                                          Safety Office and plans to reinstate its National
     We also found that users had no formal               Plan for Runway Safety. Although this is a good
means to share actions that had reduced or                start, sustained commitment along with adequate
prevented runway incursions at their locations.           resources and executive level attention will be key
We recommended that FAA develop an automated              to achieving results.
means for users to share best practices. FAA
subsequently launched a best practices website            Addressing Controller Human Factors Issues
in December. FAA also convened a task force in            through Improved Training
August, which agreed on a short-term plan to
(1) conduct safety reviews at airports based on           Addressing controller human factors issues, such
runway incursion and wrong runway departure               as fatigue and situational awareness, is important

4. OIG Testimony Number CC-2007-100, “Challenges Facing the Implementation of FAA’s Automatic Dependent
Surveillance-Broadcast Program,” October 17, 2007.

	                                                                    Actions Needed To Improve Runway Safety	   7
Audits and Investigations (continued)

to improving safety. On February 7, 2008, we           of controller teamwork as significant contributing
testified that controller staffing and training will   factors of runway incursions in 2002; yet, it has
be key watch items over the next 10 years as FAA       made slow progress toward human factors training
begins hiring and training 15,000 new controllers      to reduce the risk of runway incursions caused by
through 2016. The composition of FAA’s controller      controllers.
workforce is changing. New controllers now
represent 23 percent of the workforce (up from              For example, we reviewed an FAA human
15 percent in 2004). However, that percentage          factors initiative in 2003—the National Air Traffic
can vary extensively by location—from as little as     Professionalism Program (NATPRO). At the
2 percent (e.g., Boston terminal radar approach        time of our review, the program had not been
control facility, or TRACON) to as much as             implemented at towers where visual attention and
50 percent (e.g., Las Vegas TRACON).                   scanning are key factors in preventing runway
                                                       incursions. FAA has since provided this training
    We reported in May 2008 that FAA needed            at its en route centers and will begin using it at
to focus on controller human factors issues and        TRACONs in FY 2008. Towers are required to
training to improve individual, team, and facility     start NATPRO training in FY 2009.
performance. FAA cited human factors and lack




Audits
Testimony on the Conversion of                         the initial transition, (2) problems that Lockheed
Flight Service Stations From FAA to                    Martin encountered during the consolidation
Contract Operations                                    phase of the transition, which ultimately led to
October 10, 2007                                       service disruptions to users, and (3) key issues
                                                       that Lockheed Martin and FAA must address
The Inspector General testified before the House       going forward. Specifically, these issues included
Committee on Transportation and Infrastructure,        meeting acceptable levels of performance over
Subcommittee on Aviation on the conversion of          the next several months, achieving anticipated
flight service stations to contract operations. On     savings, and maintaining adequate staffing levels
February 1, 2005, FAA awarded a 5-year fixed-          and sufficient training of flight service specialists
price, incentive-fee contract (with 5 additional       to meet users’ needs.
option years) to Lockheed Martin to operate the
Agency’s flight service stations in the continental    Testimony on Challenges Facing the
United States, Puerto Rico, and Hawaii. On             Implementation of FAA’s Automatic
October 4, 2005, Lockheed Martin took over             Dependent Surveillance-Broadcast
operations at the 58 flight service stations, and,     Program
on that date, approximately 1,900 staff became         October 17, 2007
employees of Lockheed Martin. The 2-year
transition period ended last week. The Inspector       The Inspector General testified before the
General discussed three specific issues: (1) the       House Committee on Transportation and
management controls established by FAA over            Infrastructure, Subcommittee on Aviation


8	   Semiannual Report to Congress
on FAA’s implementation of the Automatic               projects at other airports could go unfunded.
Dependent Surveillance-Broadcast Program               We recommended that FAA monitor and track
(ADS-B). The Inspector General discussed three         Military Airport Program projects to ensure
major points. First, realistic expectations must       that the program is achieving its intended goal
be set for what benefits ADS-B will deliver in         to enhance capacity and reduce congestion in
terms of capacity and delay reduction. Second,         metropolitan areas.
ADS-B has demonstrated important benefits
where radar coverage is limited, but implementing      FAA Needs to Improve ASDE-X Management
it nationwide will be a complex undertaking.           Controls to Address Cost Growth, Schedule
Before FAA even considers the more advanced            Delays, and Safety Risks
capabilities, ADS-B must demonstrate the same          October 31, 2007
level of service that radar now provides. Finally,
FAA has decided to rely on a service contract          This report represents the results of our audit
approach for ADS-B. This means that the                of FAA’s Airport Surface Detection Equipment-
Government will not own the ADS-B ground               Model X (ASDE-X) program. FAA is developing
infrastructure but will pay for broadcast services.    ASDE-X to aid air traffic controllers in preventing
An extraordinary level of contract oversight will      ground collisions on the airport surface and
be required. Our work shows that key areas for         reducing runway incursions. FAA also intended
FAA oversight include managing requirements            for ASDE-X to improve airport safety by
and having the right in-house expertise and skill      operating in all weather conditions. ASDE-X has
mix for effective management and oversight.            undergone significant changes since its inception
This will be particularly important since FAA          in October 2000. ASDE-X was originally intended
will not own the ADS-B hardware, software,             as a low-cost alternative to FAA’s existing airport
or infrastructure. We are concerned that FAA           surface surveillance technology. At the time,
could find itself in a situation where it knows very   FAA’s deployment strategy focused on small-
little about the system that is expected to be the     to medium-sized airports that had no surface
foundation of NextGen. FAA must take steps to          surveillance technology. In September 2005, FAA
ensure it effectively addresses this risk.             made a major strategy shift, concluding this would
                                                       yield the greatest return on its investment and
Prioritization of Airport Improvement                  the maximum safety benefits would be gained
Program Funding                                        by deploying ASDE-X capabilities at airports
October 26, 2007                                       with larger traffic counts or more complex
                                                       operations. Our audit objectives were to determine
This report represents the results of our audit        (1) whether FAA’s strategy for deploying ASDE-X
of the prioritization of airport improvement           for operational use is cost effective, given the
program funding. We found that FAA’s policies          changes in the program’s deployment strategy,
are effectively ensuring that the highest priority     and (2) to what extent the ASDE-X program will
rated projects are funded in accordance with           reduce the risk of ground collisions or accidents
regulations. In addition, while we found that the      caused by runway incursions. We found that the
current set-aside funding requirements are being       ASDE-X program is at risk of not meeting its cost
met, the Military Airport Program (to convert          and schedule goals to commission all 35 ASDE-X
former military airfields to civilian airports) can    systems for $549.8 million by 2011 and may not
result in low priority projects being funded at        achieve all planned safety benefits. To achieve
airports in the program, while higher priority         ASDE-X program goals and effectively manage


	                                                                          Aviation and Special Programs	   9
Audits and Investigations (continued)

the program, FAA must (1) improve ASDE-X               Lights (RWSL) technology. The objectives of our
management controls to reduce the risks of further     audit were to (1) determine RWSL’s viability for
cost growth and schedule delays, (2) resolve           reducing runway incursions, and (2) assess FAA’s
operational performance issues with key ASDE-X         progress in implementing the system. We found
safety capabilities planned to reduce the risk of      that RWSL is a viable technology for preventing
ground collisions on intersecting runways and          runway incursions. While FAA has made progress
taxiways, including during inclement weather,          in developing RWSL, it is still in the early stages of
and (3) work with airlines and airport officials       implementation; much work remains for FAA to
to provide safety enhancements that were not           achieve full deployment. Our recommendations
included in the ASDE-X program re-baseline but         focused on the actions FAA needs to take to
are vital to reducing the risks of ground collisions   ensure that the system remains a viable tool for
caused by pilot and vehicle operator errors.           reducing runway incursions and that future
                                                       deployment remains on schedule. FAA concurred
Aviation Industry Performance                          with each of our recommendations and provided
December 27, 2007                                      appropriate planned actions and target dates.
We issued the ninth in a series of our periodic        Review of FAA’s Final Monitor Aid Tool at
updates to our Aviation Industry Performance           Denver’s Terminal Radar Approach
Report. The report identifies trends in                Control Center
aviation demand and capacity, aviation system          January 25, 2008
performance, airline finances, and service to small
communities. This edition of the report focused on     This report presents the results of our review
the summer of 2007, a time period when aviation        of the safety and suitability of FAA’s Standard
delays, as well as cancellations, reached new highs    Terminal Automation Replacement System’s
and airline service captured the attention of the      (STARS) Final Monitor Aid (FMA) tool deployed
public, Congress, the Secretary of Transportation,     at Denver’s Terminal Radar Approach Control
and the President of the United States. We             Center (TRACON). FMA provides controllers
found airline on-time performance deteriorated         with an enhanced display of aircraft on final
broadly during the summer of 2007. Of the              approach to runways so they can ensure safe
55 large airports tracked by FAA, the number           separation. Our objective was to determine if the
of delayed flights increased at 51 of the airports     FMA at the Denver TRACON is safe, effective,
and the length of delays increased at 52 airports.     and suitable for managing air traffic. We found no
Flight arrival delays, during the summer of 2007,      evidence that Denver’s new STARS FMA system is
increased by 15 percent from summer 2006 levels.       unsafe. It appears to be effectively performing the
In contrast, the number of scheduled flights           role for which it was designed; however, Denver’s
increased at only 32 of the airports. Additionally,    STARS FMA solution may not be the most
summer 2007 flight cancellations rose 28 percent       suitable approach because it requires two complete
from last year.                                        terminal automation systems to do the job of one.
                                                       In 2008, FAA will install new controller displays
FAA’s Implementation of Runway                         and upgrades at Denver. These new displays will
Status Lights                                          be able to present FMA radar and flight data to
January 14, 2008                                       controllers without using STARS. Therefore, when
                                                       installing the new displays, FAA must determine
This report represents the results of our audit        whether it is more cost‑effective to maintain two
of FAA’s implementation of Runway Status

10	 Semiannual Report to Congress
terminal automation systems or integrate FMA          the proper storage and safeguarding of weapons
software into one automation system and remove        carried on board aircraft during the layover, and
the other. FAA should then implement the most         (4) lack of communication on accommodating
suitable and cost-effective means of providing        requests from Marines and soldiers to be allowed
FMA capability.                                       into the passenger terminal. We recommended
                                                      establishment of a task force comprised of
Letter to Chairmen Mica and Petri                     representatives from the airlines, airports, the
Regarding Treatment of Marines and                    DOD, DHS, and DOT to develop and implement
Soldiers at Oakland International Airport             a uniform process for handling members of the
January 29, 2008                                      Armed Forces on all military chartered flights at
                                                      U.S. commercial service airports.
This letter to Representative John Mica, Ranking
Minority Member of the House Transportation           Testimony on FAA’s FY 2009 Budget
and Infrastructure Committee and Representative       Request: Key Issues Facing the Agency
Thomas Petri, Ranking Minority Member of the          February 7, 2008
Committee’s Aviation Subcommittee, represents
the results of our review of an incident at Oakland   The Inspector General testified before the House
International Airport on September 27, 2007.          Subcommittee on Aviation on FAA’s FY 2009
The lawmakers requested that we review why            budget request. The Inspector General stated
204 Marines and soldiers traveling on a North         that FAA is facing the formidable challenge
American Airlines chartered flight were denied        of operating and maintaining an increasingly
access to the airport terminal during a layover.      strained aviation system while transitioning to
The service men and women were en route from          the next generation of air traffic control. FAA will
Iraq to their home base in Hawaii. Our review         face challenges in these efforts as it does not have a
found the following reasons for the action: (1) the   long-term reauthorization or financing mechanism
airport’s concern that the flight’s ground staff      in place. The Inspector General noted that reaching
could not provide an adequate level of escort         agreement on a financing mechanism is an urgent
and control of such a large group of military         matter because taxing and spending authority for
personnel in or around the terminal area,             FAA programs will expire on February 29, 2008.
(2) absence of a coordinated policy for security      The Inspector General’s testimony focused on key
screening between the Department of Defense           issues that require Agency attention, regardless of
(DOD) and the Department of Homeland                  the funding mechanism that Congress ultimately
Security (DHS), (3) miscommunication about            chooses, as they will shape FAA’s funding




	                                                                          Aviation and Special Programs	 11
Audits and Investigations (continued)

requirements throughout the next several years.         Assessment of FAA’s Risk-Based System for
These include (1) keeping existing modernization        Overseeing Aircraft Manufacturers’
projects on track and moving forward with the           Suppliers
Next Generation Air Traffic Management System           February 26, 2008
(NextGen), (2) addressing attrition and training
issues within FAA’s air traffic controller and safety   This report represents the results of our audit
inspector workforces, and (3) establishing realistic    of FAA’s oversight of aircraft manufacturers’
funding levels for airports.                            quality assurance systems for domestic and
                                                        foreign aircraft part suppliers. Because aircraft
Testimony on Actions Needed                             and engine manufacturers are increasingly
To Improve Runway Safety                                taking an international partnership approach
February 13, 2008                                       to business, aircraft parts and component
                                                        suppliers now produce significant parts of
The Inspector General testified before the House        U.S.- and foreign-manufactured aircraft.
Transportation and Infrastructure Subcommittee          Although aviation manufacturers are ultimately
on Aviation on actions needed to improve runway         responsible for the quality of their products, FAA’s
safety. The Inspector General noted that aviation       Aircraft Certification Service personnel oversee
stakeholders are expressing growing concerns            manufacturers’ processes for ensuring that the
regarding the rise in severe runway incidents and       products meet approved design specifications
that runway incursions pose a significant threat        and are in a condition for safe operation. We
to runway safety. Although the FAA has taken            found that FAA’s risk-based oversight system
decisive actions to reduce runway incursions,           for suppliers needs improvement as it does not
serious close calls involving commercial aircraft       consider the degree to which manufacturers
continue to occur. Because runway incursions            now use suppliers to make aviation products.
can be caused by controllers, pilots, or ground         Specifically, (1) FAA has not ensured that
vehicles, responsibility for their prevention falls     manufacturers are providing oversight of their
on all users of the National Airspace System—           suppliers, (2) FAA does not require inspectors to
FAA, airlines, and airport operators. During the        perform enough audits of suppliers to determine
last 10 years, the Office of Inspector General has      how well manufacturers’ quality assurance
reported on a range of actions needed to enhance        systems are working, and (3) the systemic
the margin of safety on the Nation’s runways. The       deficiencies we identified at 21 supplier facilities
Inspector General’s testimony emphasized four           indicate that both manufacturers and FAA need
areas where FAA and other aviation users should         to strengthen their oversight of these facilities.
focus runway safety efforts: (1) implementing           Our recommendations to FAA focus on requiring
existing and new FAA systems to alert controllers       manufacturers to establish criteria for conducting
and pilots to potential runway incursions;              on-site (initial and periodic) supplier audits,
(2) making airport-specific infrastructure and          assessing risks with suppliers that produce flight-
procedural changes, such as improved runway             critical parts, ensuring objectivity and consistency
signage and markings; (3) reinvigorating FAA’s          in inspectors’ risk assessments of manufacturers,
national program for improving runway safety            correlating the number of inspector audits with
and identifying and correcting root causes of           the number of suppliers a manufacturer uses, and
runway incursions; and (4) addressing controller        enhancing inspector training.
human factors issues, such as fatigue and
attention, through improved training.


12	 Semiannual Report to Congress
Investigations

Oklahoma Aircraft Mechanic Sentenced to                indicated that the engine had been disassembled,
More Than 4 Years in Jail for Falsification            cleaned, overhauled, and/or inspected in
of Records in Connection with Improper                 accordance with applicable regulations. However,
Aircraft Engine Overhauls                              Allen Good, Larry Good, and Parker were aware
October 3, 2007                                        that the engines were either not overhauled
                                                       properly, contained replacement parts that were
Aircraft mechanic Allen D. Good was sentenced          marked not airworthy, or were simply not safe for
on October 3 in U.S. District Court, Oklahoma          use on another aircraft.
City, Oklahoma, to 51 months of incarceration, to
be followed by 36 months probation, and ordered        Idaho Man Sentenced to Nearly 2 Years in
to pay $363,633 in restitution to the victims and      Prison and Ordered to Pay More Than
forfeit $176,243 to the U.S. Government. Good          $420,000 in Restitution for Hazardous
was found guilty at trial in December 2006 on          Waste Violations
one count of conspiracy and three counts of            October 22, 2007
false statements in connection with conducting
improper overhauls on aircraft engines. Two            Krister Sven Evertson, former owner of now-
other defendants, Larry G. Good and Robert E.          defunct SBH Corporation, was sentenced on
Parker, were sentenced on September 28, 2007. The      October 22 in U.S. District Court, Pocatello,
investigation revealed that the engines involved       Idaho, to 21 months in prison, to be followed
were used on privately owned certified planes          by 3 years supervised release, and ordered to
(Cessna, etc.) and experimental aircraft. Several      pay $421,049 in restitution for hazardous waste
engines failed before installation, while one engine   violations. On June 18, 2007, a jury convicted
failed in the air immediately after installation.      Evertson of violating the Hazardous Materials
The pilot of that plane was able to land the plane     Transportation Uniform Safety Act (HMTUSA)
safety, but with great difficulty. The investigation   and violations related to the illegal storage
identified 20 engines in which logbook entries         and disposal of sodium metal. (Sodium metal
                                                       is highly reactive when wet and is used in the
                                                       manufacturing of sodium borohydride, an
                                                       industrial chemical.)

                                                           Evertson, through SBH Corporation, arranged
                                                       for the transportation of 10 metric tons (22,000
                                                       pounds) of sodium metal from China to the
                                                       United States. Evertson initially transported
                                                       the sodium metal from the port of entry in
                                                       Kent, Washington, to Salmon, Idaho, where he
                                                       attempted to manufacture sodium borohydride.
                                                       When his efforts to produce a commercially
                                                       viable product failed, Evertson had the remaining
                                                       sodium metal transported to Steel Ranch Supply
                                                       (SRS’s) facility, also located in Salmon, Idaho. The
                                                       sodium metal was transported to SRS’s facility

	                                                                           Aviation and Special Programs	 13
Audits and Investigations (continued)

via common carrier over public roads with no              to 36 months probation, fined $5,000, and, as a
protective measures taken to reduce the risk that         special condition, ordered not to pilot an aircraft
the transported materials would react and damage          of any type. The DOT/OIG investigation revealed
persons or property. Neither Evertson nor the             that during the same time that Spankowski
carrier he retained had the appropriate shipping          submitted these medical applications, he also was
papers for the hazardous material, nor was the            receiving 100 percent disability benefits from the
material placarded, labeled, packaged, or secured         U.S. Department of Veterans Affairs for a medical
in accordance with HMTUSA regulations. The                disorder he failed to disclose on his medical
sodium metal was then stored and subsequently             applications. Spankowski also failed to report that
deemed illegally disposed of when Evertson failed         he had been convicted of two nontraffic offenses.
to pay continued rent for storage of the sodium           This investigation was conducted with FAA’s
metal at SRS’s facility. This was a joint investigation   assistance.
with the Environmental Protection Agency’s
Criminal Investigation Division.                          Missouri Owner of Helicopter Sales/
                                                          Rebuilding Firm Pleads Guilty to Wire Fraud
Las Vegas Commercial Helicopter Pilot                     and Money Laundering Charges after
Sentenced for Falsification of FAA Airman                 Selling Damaged Helicopter Part
Medical Applications                                      March 4, 2008
March 3, 2008
                                                          Robert A. Schlotzhauer, owner of Falcon
Victor Spankowski was sentenced in U.S. Court,            Helicopters, Inc. (Falcon), pled guilty on March 4
Las Vegas, Nevada, on March 3 for falsifying              in U.S. District Court, Kansas City, Missouri,
his 2002 and his 2004 Federal Aviation                    to wire fraud and money laundering. In 2001,
Administration (FAA) Applications for Airman              in violation of Federal Aviation Administration
Medical Certificate. Spankowski was sentenced             (FAA) regulations, Schlotzhauer repaired and




14	 Semiannual Report to Congress
returned to service an engine compressor that           various pieces of avionics equipment from several
was removed from a helicopter that crashed into         aircraft located outside the State of Florida and
the ocean. Then, in December 2005, Schlotzhauer         sold them to multiple buyers. Mercier, a Federal
sent an e-mail to a customer stating that the           Aviation Administration (FAA)-certified airman,
compressor—which the customer ultimately                was an aviation parts broker specializing in
purchased—was involved in a hard landing                avionics equipment such as ground-to-air radios,
after running out of gas, when he knew that             air-to-air radios, and ground positioning satellite
the helicopter was submerged in the ocean.              receivers. On October 16, 2007, Mercier pled
In March 2006, Schlotzhauer purchased a                 guilty to six counts of an indictment charging him
$31,000 cashier’s check to repay the customer           with transportation and sale of stolen property.
who had ultimately learned Schlotzhauer had             Mercier’s tampering with the avionics presented a
misrepresented the part and that the part was           risk of danger to those who flew in the burglarized
not serviceable. He falsely stated that the payee       aircraft. Mercier has nine prior State convictions
on the check was someone other than himself             for theft and dealing in stolen aircraft parts and
to conceal the part’s origin. Schlotzhauer agreed       one Federal conviction for interstate transportation
upon sentencing to pay a fine of $550,000, as           of stolen avionics equipment. This was a joint
well as make $63,854 in restitution to victims of       investigation with the Florida Department of Law
his schemes. He also agreed to serve 12 months          Enforcement and FAA.
home confinement and a period of probation to
be determined by the court, as well as surrender        Florida Pilot Sentenced to Nearly 4 Years in
all his repair-related FAA certifications. As part of   Prison and Ordered to Make Restitution of
the plea agreement, Falcon’s assets will be released    $22,000 for Interstate Transportation of a
to facilitate the sale of the company. A sentencing     Stolen Aircraft
hearing is scheduled for September 15, 2008. This       March 27, 2008
case was conducted with FAA’s assistance.
                                                        Daniel Andrew Wolcott was sentenced on
Florida Pilot and Aviation Parts Broker                 March 27 in U.S. District Court, Jacksonville,
Sentenced to 8 Years in Prison and Ordered              Florida, to 46 months imprisonment, to be
to Pay Nearly $170,000 in Restitution for               followed by 36 months supervised release, and
Selling Stolen Aircraft Parts                           ordered to pay $22,000 in restitution for the
March 21, 2008                                          interstate transportation of a stolen aircraft. On
                                                        August 2, 2007, Wolcott pled guilty to a one-count
Mario Mercier was sentenced on March 21 in              felony information charging him with interstate
U.S. District Court, Tampa, Florida, to 8 years         transportation of a stolen aircraft. As part of the
imprisonment, followed by 3 years supervised            plea agreement, Wolcott agreed to cooperate and
release, and ordered to pay $168,045 in restitution     not contest a suspension of his Commercial Pilot
and a forfeiture judgment of $49,250. The court         Certificate for 1 year based on the Federal Aviation
further ordered Mercier to relinquish his pilot’s       Administration’s (FAA’s) Notice of Proposed
license and prohibited Mercier from engaging in         Certificate Action.
any future aviation industry activities.
                                                           This investigation was initiated on a referral
    The DOT/OIG investigation that was referred         from FAA advising that on October 9, 2005,
from the Florida Department of Law Enforcement          Wolcott stole a Cessna Citation from the St. Johns
revealed that between 2004 and 2006, Mercier stole      County, Florida, Airport and then flew it to


	                                                                            Aviation and Special Programs	 15
Audits and Investigations (continued)

Briscoe Airport in Lawrenceville, Georgia. FAA          owner and operator of Smooth Landings Inc.—
also advised that Wolcott held a Commercial Pilot       a repair business certified by the Federal Aviation
Certificate; however, he did not hold the type          Administration (FAA)—with fraud involving
rating required to operate the stolen aircraft. The     aircraft parts and transportation of stolen goods.
DOT/OIG investigation revealed that Wolcott flew        The information alleged that Snyder falsified
the stolen aircraft by gaining access to the aircraft   aircraft logbooks to fraudulently indicate that his
because he had a commercial pilot license and           company completed engine and propeller repairs
had previously flown other aircraft to and from         when, in fact, none had been completed. These
St. Johns County Airport. Once he gained access,        actions could have caused a catastrophic event.
Wolcott took six friends for a ride in the stolen       The information further alleged that Snyder
aircraft. After completion of the flight, Wolcott       continued to conduct aircraft repairs after the
abandoned the aircraft at the Briscoe Airport and       FAA revoked his mechanics license in 2006, but
took a commercial flight back to Jacksonville,          failed to make the required repair entries in the
Florida. This case was investigated jointly with the    aircraft logbooks. In addition, the investigation
assistance of the Federal Bureau of Investigation,      also determined that Snyder allegedly made
the Gwinnett County Police Department, the St.          approximately 30 false logbook entries between
Johns County Sheriff’s Office, and FAA.                 October 2006 and September 2007 related to FAA-
                                                        regulated aircraft inspections and that Snyder
Pennsylvania Aircraft Inspection Operator               forged an FAA-certified mechanic’s signature on
Charged with Aircraft Parts Fraud                       at least 150 occasions between November 2002
March 28, 2008                                          and April 2005—a period of time in which Snyder
                                                        was not authorized to complete those aircraft
The U.S. Attorney’s Office in Harrisburg,               inspections. A plea hearing for Snyder has not yet
Pennsylvania, filed a two-count information on          been scheduled. FAA is assisting with the ongoing
March 28 charging Brian Daniel Snyder, the              investigation.




16	 Semiannual Report to Congress
Highway and Transit Programs




In Focus: Exposing Fraud in Boston’s Central Artery/Tunnel Project

The Central Artery/Tunnel (CA/T) Project, better         of Inspector General (OIG) has had a continuing
known as the “Big Dig,” is the most expensive            role in combating fraud involving Federal funds
highway construction project in United States            for the CA/T Project.
history, and one that is particularly important to
the Commonwealth of Massachusetts and all of                 In recent years, OIG special agents have worked
New England. It is well known that the project           with the Federal Bureau of Investigation (FBI),
has had a troubled history of significant schedule       Massachusetts State Police, the U.S. Attorney’s
delays and cost increases. Originally estimated to       and Massachusetts Attorney General’s Offices, the
be completed by December 1998, it did not reach          Federal Highway Administration, and others, to
substantial completion until January 2006—more           successfully investigate and prosecute numerous
than 7 years later. Costs also steadily escalated from   CA/T Project cases involving false statements
$2.6 billion to nearly $15 billion during this time.     and claims against Big Dig materials and services
                                                         contracts.
     It is important to ensure that taxpayers’
investments in the construction and management               False statements occur when a company or
of large transportation projects are protected from      individual knowingly makes, uses, or causes the
unscrupulous individuals and companies seeking           making or use of a false record or statement,
to cheat the Government through fraud. The Office        such as affirmative certifications that labor costs,

	                                                                                            Exposing Fraud	 17
Audits and Investigations (continued)

material quantity and quality, and other costs are                                            The breached wall’s concrete panels were built
accurate and comply with contract provisions                                             using the slurry wall trench excavation technique.
when in fact they do not. False claims occur when                                        As the trench for the wall was excavated, it was
a company or individual seeks payment from the                                           filled with a viscous liquid called slurry to support
Government knowing they are not entitled to it.                                          the earth around the trench. Deep structural steel
                                                                                         piles were then placed vertically in the trench,
     The four long-running cases highlighted in                                          4 to 6 feet apart, followed by concrete pumped
this article were recently settled when several                                          into the trench from the bottom up to gradually
Big Dig contractors, Bechtel/Parsons Brinckerhoff,                                       displaced the slurry. Slurry wall construction is
J.V. (B/PB), Aggregate Industries Northeast                                              time-sensitive, and contract specifications required
Region, and 24 Section Design Consultants (and                                           that concrete placement could not occur unless the
their insurers), agreed to pay the United States                                         slurry was within certain specified tolerances.
and the Commonwealth of Massachusetts over
$500 million to resolve certain criminal and                                                 Investigators found that B/PB had failed to
civil liabilities. The OIG will continue working                                         manage construction of the I-93 slurry walls in
with its colleagues to promote the detection and                                         key areas. For example, the joint venture allowed
prosecution of fraud schemes, which undermine                                            construction contractors, such as Modern
public confidence in the integrity of the Nation’s                                       Continental Construction, to place concrete for
transportation system.                                                                   the slurry walls when construction specifications
                                                                                         had not been met, which adversely impacted the
                                                                                         quality of the concrete panels.

                                                                                             In addition, B/PB knew about significant defects
                                                                                         in the completed walls but did not document
                                                                                         them, then allowed the defects to go unrepaired
                                                                                         (or be inadequately repaired), even after the I-93
                                                                                         tunnel was open to traffic and B/PB had submitted
                                                      Massachusetts Turnpike Authority




                                                                                         documents to the project certifying the safety and
                                                                                         substantial completion of the I-93 mainline tunnel.
                                                                                         These documents were false and inaccurate.

                                                                                             For example, review of B/PB construction
                                                                                         records for the breached panel found that the
Defects in Tunnel Wall Construction and                                                  trench was not properly cleaned of debris when
Poor Oversight Result in Water Leak                                                      the excavation was complete, or debris fell into
                                                                                         the panel just before or during placement of the
On September 15, 2004, a severe leak breached                                            concrete. The inclusion of debris diminished the
the east wall of the I-93 northbound tunnel just                                         structural integrity of the panel.
south of Boston’s Congress Street and about
70 feet below the surface of Atlantic Avenue.                                            Improperly Installed Tunnel Ceiling Panel
Water and sand flowed into the tunnel, at a rate of                                      Collapses, Killing Motorist
about 300 gallons per minute, which significantly
impeded traffic.                                                                         On July 10, 2006, while traveling to Boston Logan
                                                                                         International Airport via the I-90 Connector
                                                                                         Tunnel, which had opened in 2003, a motorist

18	 Semiannual Report to Congress
tragically lost her life and her husband was injured   agreed to submit about $80,000 of false time and
when a suspended concrete ceiling panel collapsed      materials reports to MC/O and ultimately the
and crashed down onto their vehicle and the            CA/T Project for payment, knowing the reports
tunnel roadway. Within hours of the incident, OIG      contained inflated labor rates. In settling this case,
special agents joined the National Transportation      B/PB acknowledged it failed to adequately fulfill its
Safety Board and others to investigate the             construction management obligations, in part by
circumstances related to the collapse.                 failing to ensure the accuracy of MECC time and
                                                       materials billings. Three MECC employees were
    The OIG investigation, in part, subsequently       also convicted in Federal court for submitting false
disclosed shortcomings in B/PB’s oversight of          claims in connection with this overbilling scheme.
construction of the I-90 Connector Tunnel ceiling.
For example, B/PB had observed epoxy bolts that        Lack of Quality Control Testing Allowed
were failing to withstand the load of the ceiling      Substandard Concrete To Be Used
panels and were “creeping” out of the roof—a           on the CA/T Project
phenomenon whereby the bolts pull away from
the ceiling over time—but did not adequately           Investigators also found that from about 1996
investigate the cause of these failures or correct     to 2005, concrete supplier Aggregate Industries,
the problem.                                           Northeast Region, Inc. (AINE) delivered about
     In settling the case, B/PB acknowledged           5,700 truckloads of substandard concrete to the
its oversight weaknesses and false documents           CA/T Project. The approximate losses to both
submitted to the CA/T Project certifying the           the United States and the Commonwealth of
safety and substantial completion of the I-90          Massachusetts were more than $5 million.
Connector Tunnel.

Labor Billing Rates Fraudulently Inflated

Special agents from OIG, the FBI, and
the U.S. Department of Labor’s/OIG also




                                                                                                                 Massachusetts Turnpike Authority
investigated allegations that a CA/T Project
electrical subcontractor (Massachusetts Electric
Construction Company or MECC) misrepresented
the classification of apprentice workers as
journeymen between 2003 and 2005 in order to
bill them at a higher hourly rate on time and
materials reports. MECC was a subcontractor to             In August 2007, AINE pled guilty to one count
McCourt/Obayashi (MC/O), the prime contractor          of conspiracy to defraud the United States through
on the project’s tunnel finishes. MECC was hired       the submission of false claims for payment. In
to install electrical conduit and wiring on a          September 2007, AINE was sentenced to pay nearly
contract that was initially valued at $12.5 million;   $50 million, including $27.2 million as restitution,
however, it was later increased to nearly              $9.3 million in fines paid to the United States to
$22 million due to modifications.                      settle the Federal false claims, a criminal fine of
                                                       $7.2 million, and $6.2 million in fines to settle false
  The OIG investigation disclosed that an              state claims. AINE was also required to establish a
MECC project manager and two co-conspirators           corporate integrity program, among other penalties.

	                                                                                          Exposing Fraud	 19
Audits and Investigations (continued)

    In addition, six AINE managers were charged       to provide for future non-routine repairs and
in a 135-count indictment involving conspiracy,       maintenance of the “Big Dig.”
fraud, and false statements related to their
participation in the scheme, they are now awaiting        In addition, the settlement agreement does
trial in Federal court.                               not release B/PB from liability for any future
                                                      catastrophic events occurring within the next
    B/PB acknowledged that it did not meet its        10 years. If a future catastrophic event relating the
oversight obligations failing to institute concrete   CA/T Project causes more than $50 million in
testing protocols at the construction site, as        damages, the Federal and state governments retain
well as in the materials laboratory, to determine     the right to sue B/PB.
whether all concrete delivered to the project met
specifications and was properly placed.                   For the next 10 years (through October 2017),
                                                      B/PB also waive their right to statute of limitations
B/PB To Be Held Liable/Responsible                    and other time-based procedural defenses to a
in the Future                                         catastrophic event claim. In addition, B/PB is
                                                      required to enact corporate compliance programs
Most of the more than $500 million recovered as       that are designed to prevent any similar conduct
a result of these cases will be held in a new state   from occurring on future public construction
CA/T Project Repair and Maintenance Trust Fund        projects.



Audits

Testimony on Effectiveness of Federal                 Interim Report on NAFTA Cross-Border
Drunk Driving Programs                                Trucking Demonstration Project
October 25, 2007                                      March 10, 2008

The Inspector General testified before the            This interim report represents the results of our
Senate Committee on Environment and Public            audit at the 6-month point of the demonstration
Works, Subcommittee on Transportation Safety,         project, as required by May 2007 legislation. Our
Infrastructure Security, and Water Quality on the     audit found that, at the 6-month point, fewer
effectiveness of Federal drunk driving programs.      Mexican carriers and vehicles have participated
The Inspector General’s statement focused on          in the project than expected. The low number of
the following areas: (1) key strategies identified    carriers currently participating is not sufficient to
for countering alcohol-impaired driving, (2) how      provide reliable statistical projections regarding
NHTSA could better measure the effectiveness of       safety attributes of Mexican carriers. The
key strategies, and (3) actions NHTSA has agreed      Department has established and is supporting an
to take, in concert with the states, to improve       independent panel to assess any adverse safety
performance measures for alcohol-impaired             impacts from the project; however, the panel also is
driving. The Inspector General urged NHTSA            concerned that it will have insufficient data when
to work more aggressively with its state partners     the project ends. Finally, FMCSA has established
to accomplish these actions in advance of the         and enhanced mechanisms for state and Federal
scheduled 3-year time period.                         monitoring and enforcement of safety rules.


20	 Semiannual Report to Congress
FMCSA records show that checks of Mexican             Best Practices for Improving Oversight of
vehicles and drivers are occurring at the border,     State and Highway Safety Programs
but FMCSA does not have assurance that every          March 25, 2008
participating truck and driver is checked every
time it crosses the border into the United States     This report represents the results of our audit of the
because a key quality control measure designed        National Highway Traffic Safety Administration’s
to ensure this occurs has not been implemented.       (NHTSA) oversight of state highway safety
The legislation also requires us to issue a final     programs. Our audit was conducted in response
report 60 days following the conclusion of the        to a requirement within the Safe, Accountable,
demonstration project.                                Flexible, Efficient, Transportation Equity Act:
                                                      A Legacy for Users (SAFETEA-LU). The objective
Testimony on Cross-Border Trucking                    of our audit was to evaluate NHTSA’s oversight of
Demonstration Project                                 state highway safety programs and identify best
March 11, 2008                                        practices. We found that NHTSA developed and
                                                      followed guidelines and procedures for oversight
The Inspector General testified before the            reviews of state highway safety programs, but
Senate Committee on Commerce, Science, and            we identified weaknesses in NHTSA’s annual
Transportation regarding the Department’s             program reviews that made it difficult for NHTSA
Cross-Border Trucking Demonstration Project.          to comprehensively assess whether states were
We are required by law to provide an interim          on course to meet their safety goals. Specifically,
and final report on the demonstration project         NHTSA did not (1) ensure that states consistently
that allows a select number of Mexico-domiciled       measured performance, (2) assess states’ reporting
motor carriers to operate throughout the              of performance trends, and (3) analyze states’
United States. At the 6-month point, we made          long-term progress in meeting safety goals. We
the following three major observations: (1) the       identified opportunities for NHTSA to better
Federal Motor Carrier Safety Administration           measure the results of its grant programs and
(FMCSA) has implemented plans to ensure it            enhance the accountability for grant funds.
checks every participating truck every time it
crosses the border, but it has not implemented        Central Artery/Tunnel Project May 2007
a key quality control to ensure that checks are       Finance Plan Update
being done, despite a commitment to do so in          March 31, 2008
the Department’s report to Congress; (2) the
limited data available at this time means we          This report represents the results of our audit
cannot draw meaningful conclusions about the          of the Central Artery/Tunnel Project May 2007
safety performance of the demonstration project       Finance Plan Update (Plan) that was submitted by
participants since far fewer carriers and vehicles    the Massachusetts Turnpike Authority (MTA). The
have participated in the project than expected;       purpose of this Plan is to provide senior program
and (3) FMCSA has taken actions to establish and      and oversight officials with information to track
enhance mechanisms for assessing adverse safety       the Project’s estimated cost and the financing and
impacts from the project and for monitoring and       cash flows needed to meet Project obligations.
enforcing safety rules for project participants.      Our objective in reviewing the 2007 Plan was to
These actions include establishing and providing      determine whether it complied with the Federal
information to an independent panel and               Highway Administration (FHWA) Guidance.
providing guidance and training to state officials.   The latest Plan forecast a total Project cost of


	                                                                          Highway and Transit Programs	 21
Audits and Investigations (continued)

$14.798 billion. As of January 2008, $128 million    for obligation. Consequentially, the MTA will
in Federal funds remained unobligated. Our audit     need to identify $37.7 million in non-Federal
found that the MTA’s Plan generally complied         resources to complete the Project. In addition,
with the FHWA Guidance except that it should         the Plan’s omission of some of the necessary
be adjusted to correct understated insurance costs   disclosures and assessments must be corrected to
and reduce the amount of Federal funds available     achieve full compliance with FHWA Guidance.



Investigations
Massachusetts Contractor and President               Ohio Bridge Painting Company Owner
Sentenced for Conspiracy to Commit Bid               Ordered to Pay Nearly $2.3 Million in
Rigging on Connecticut Highway Contracts             Restitution and Serve Nearly 2 Years
October 2, 2007                                      in Prison
                                                     October 10, 2007
Marino Brothers, Inc. of Peabody, Massachusetts,
and its President, Robert Marino, were sentenced     Anthony Katsourakis, owner of American
on October 2 in Connecticut State Superior Court     Painting Company, Inc. (APC), was sentenced
in New Britain, Connecticut, on two counts each      on October 10 in U.S. District Court, Cleveland,
of conspiracy to commit bid rigging following        Ohio, to 21 months imprisonment and 2 years
an August 8, 2007, jury trial conviction. The        supervised release. APC and Katsourakis were
company was ordered to pay $30,000 in restitution    also ordered to pay $2.256 million in restitution
to the State of Connecticut and was banned from      to the Ohio Department of Transportation
bidding on publicly funded contracts for 3 years.    (ODOT). Katsourakis and APC pled guilty on
Marino was ordered to perform 100 hours of           July 28, 2006, to conspiracy and bribery charges.
community service and pay $5,000 in restitution      The indictment charged that between May 2001
to the State of Connecticut. The Connecticut         and December 2001, APC and Katsourakis
Chief State Attorney’s Office requested DOT/         conspired with others, paid cash bribes, and
OIG’s investigative assistance into the awarding     provided improper compensation, awards, and
of crack sealing maintenance contracts to Marino     inducements in exchange for overlooking APC’s
Brothers, Inc. Five Connecticut Department of        substandard and noncomplying performance
Transportation (ConnDOT) employees were also         on painting contracts awarded by ODOT for
charged with conspiracy to commit forgery by         work in Cuyahoga County, Ohio. The Federal
altering a document to promote Marino Brothers’      Highway Administration (FHWA) suspended
cold seal business. To date, one ConnDOT             both Katsourakis and APC during the criminal
employee has been acquitted, another has pled        proceeding, and DOT/OIG has referred both to
guilty, and three are awaiting trial. DOT/OIG has    FHWA for debarment action. The investigation
referred Marino and Marino Brothers, Inc. to the     was conducted jointly by DOT/OIG, the Federal
Federal Highway Administration for suspension/       Bureau of Investigation, and the Internal Revenue
debarment consideration.                             Service.




22	 Semiannual Report to Congress
New York Paving Company Suspended                    that between July 2003 and September 2005, the
and Ordered to Pay Nearly $330,000 in                defendants manipulated the awarding of SCDPW
Restitution for Bid Rigging Scheme on                and Brookhaven contracts for road repairs and
New York Paving Contracts                            artificially inflated the costs of such contracts
October 19, 2007                                     through a system of bid rigging. The Federal
                                                     Highway Administration suspended Haney and
Suffolk Asphalt Supply, Inc. (SAS) was sentenced     SAS, and debarment is pending.
on October 19 in U.S. District Court, Central
Islip, New York, for conspiring with several         Co-Owner of New York Construction
individuals and companies to rig the bids of         Company Sentenced to 6 Months Home
various roadway projects sponsored by the Suffolk    Confinement and Ordered to Forfeit
County Department of Public Works (SCDPW)            $990,000 to the City of New York
and the Town of Brookhaven, New York. SAS            October 26, 2007
was found jointly and severally liable and ordered
to pay $326,343 in restitution to Suffolk County     Charles Ostuni, co-owner of construction
and the Town of Brookhaven. The company              company Mohawk Milling and Sweeping, Inc.,
was also sentenced to serve 3 years probation        was sentenced on October 26 to 6 months home
and ordered not to perform any municipal work        confinement and 4 years probation and ordered to
while on probation. On December 22, 2006,            forfeit $990,000 to the City of New York on charges
James K. Haney, President of SAS, pled guilty        of money laundering conspiracy stemming from
personally and on behalf of the company to           the bribery of a New York City-contracted roadway
conspiracy charges related to bid rigging and        construction inspector on a $16 million roadway
mail fraud conspiracy. The investigation revealed    milling contract. The investigation established that

	                                                                         Highway and Transit Programs	 23
Audits and Investigations (continued)

from 2002 to 2003, Ostuni and other defendants          TMI’s parent corporation also agreed to repave a
conspired to bribe the roadway construction             road TMI previously worked on that has shown
inspector with approximately $25,000 in exchange        signs of unnatural wear. The repaving is expected
for allowing them to overbill the City of New York      to cost in excess of $500,000.
approximately $1.4 million for more truck loads
of material than were actually removed from the         Indiana Contractor Agrees to Pay More Than
roadway milling job site. A roadway inspector           $8.2 Million to Settle Federal and State
and two other defendants involved in the scheme         Asphalt Fraud Claims
have pled guilty and more than $1.2 million has         December 10, 2007
been ordered forfeited. The Federal Highway
Administration (FHWA) suspended Ostuni                  Indiana paving contractor Gohmann Asphalt
and Mohawk Milling. Regarding the roadway               and Construction, Inc. (Gohmann) agreed on
inspector and two defendants, the road inspector        December 10 in U.S. District Court, Louisville,
was not referred and is currently incarcerated          Kentucky, to pay more than $8.2 million to settle
and unemployed; one defendant, who is currently         Federal and State claims alleging that Gohmann
incarcerated, was suspended by FWHA and                 fraudulently replaced samples of asphalt between
debarment action is pending; and the second             1997 and 2006 to inflate the amount paid on road
defendant pled guilty under seal, thus his status       projects by the Federal Highway Administration
was not referred.                                       (FHWA), Commonwealth of Kentucky, and State
                                                        of Indiana.
Michigan Highway Contractor Agrees to
Pay Nearly $600,000 in Civil Settlement                     It was alleged in a Qui Tam complaint that
                                                        between 1997 and 2006 in Kentucky and between
Involving Asphalt Pavement
                                                        1998 and 2006 in Indiana, Gohmann submitted
December 7, 2007
                                                        false claims with respect to certain federally
The parent corporation of Thompson-McCully,             funded road projects where asphalt density was
Inc. (TMI)—a now-defunct paving contractor              a component of pay. Density was measured by
located in Clarkston, Michigan, which was in            extracting “cores” of asphalt, which were then
the midst of being restructured by the parent           tested in a laboratory. The laboratory results were
corporation into two subsidiaries during our            then used to determine Gohmann’s compensation.
investigation—paid $595,557 on December 7 to the        The investigation revealed that Gohmann’s
U.S. Government by and through one of the new           employees fraudulently swapped “good” cores for
subsidiaries to settle a civil false claims case. On    “bad” cores (i.e., cores with failing density).
November 12, 2007, TMI signed a civil settlement
                                                             As part of the settlement, Gohmann agreed to
agreement with the U.S. Attorney’s Office for the
                                                        provide warranties to correct future deficiencies on
Eastern District of Michigan, Detroit, Michigan,
                                                        work it did on highways in Kentucky and Indiana
and with the Federal Highway Administration.
                                                        and extend warranties for an additional 3 years
TMI agreed to pay the government to settle single
                                                        on 66 road projects it completed. Gohmann also
damages pertaining to incentive payments on
                                                        agreed to appoint an independent compliance
federally funded highway construction projects.
                                                        officer and implement a corporate compliance
Between 1998 and 2000, TMI allegedly falsified
                                                        program that addresses all types of asphalt testing.
density test results for asphalt pavement on at least
                                                        The settlement agreement also establishes an
three federally funded contracts cumulatively
                                                        ethical standard of behavior for all Gohmann
valued at more than $30 million. In the settlement,
                                                        employees. The warrant work and integrity

24	 Semiannual Report to Congress
agreement were developed in lieu of suspending        Four Kansas Construction Companies
or debarring Gohmann. The Gohmann Regional            Agree to Pay More Than $800,000 to
Manager involved in the “core swapping” was           Settle Allegations of False Claims Under
terminated from the company. The investigation        DBE Program
was conducted with FHWA and the U.S. Attorney’s       January 2, 2008
Office for the Western District of Kentucky.
                                                      Construction companies AGW Steel, Inc. (AGW),
Massachusetts Subcontractor Manager                   Koss Construction Company, Inc. (Koss), Carter-
Sentenced to More Than 1 Year                         Waters Corporation (CWC), and Ideker, Inc.
Incarceration and Ordered to Pay                      (Ideker) agreed to a civil settlement on January 2
Nearly $53,000 in Fines and Restitution               in U.S. District Court, Wichita, Kansas, to resolve
for Conspiracy Role in False Labor Rate               allegations of Disadvantaged Business Enterprise
Charges on Central Artery/Tunnel Project              (DBE) fraud. AGW agreed to pay $50,000; Koss
December 20, 2007                                     agreed to pay $600,000; CWC agreed to pay
                                                      $176,000; and Ideker agreed to pay $22,000.
Steven Bowers, a former Project Manager for           Koss, CWC, and Ideker also agreed to corporate
Mass. Electric Construction Company (MEC),            integrity programs to be approved by the Federal
a subcontractor to McCourt/Obayashi (MC/O)—           Highway Administration (FHWA). AGW and its
the prime contractor on the Central Artery/Tunnel     owners, Harvey and Geneal Williams, agreed to
(CA/T) Project’s tunnel finishes contract—was         voluntarily withdraw from participation in the
sentenced on December 20 in U.S. District Court,      Federal DBE program for 3 years. The investigation
Boston, Massachusetts, to 15 months in prison         revealed that Koss used AGW as a DBE on various
and 3 years supervised release and fined $5,000.      federally funded construction projects valued at
Bowers was also ordered to pay a $9,900 special       approximately $54 million to help Koss meet the
assessment and $38,000 in restitution. MEC’s          contractually mandated DBE goals. Specifically,
$21.5 million subcontract included the installation   Koss and Ideker, under separate contracts, entered
of electrical conduit and wiring in the tunnel.       into a contract with AGW to supply rebar for the
MEC self-reported allegations that one of its         paving contracts. However, CWC was the actual
employees reported inaccurate labor cost data on      supplier on the contracts and AGW merely served
daily reports used to compile costs on time and       as a pass-through. DOT/OIG investigated this
materials (T&M) change orders. The DOT/OIG            case with assistance from FHWA and the Kansas
investigation showed that Bowers and two other        Department of Transportation.
MEC employees conspired to submit false T&M
daily reports for payment to MC/O, and ultimately     Ohio DBE Company and Executive
the CA/T Project, knowing the reports falsely         Sentenced for DBE Fraud and Ordered to
indicated that apprentice-level electricians were     Pay More Than $115,000 in Fines and
higher-paid journeymen. The loss to the Federal       Restitution
government was estimated to be approximately          January 2, 2008
$80,000. The results of this investigation were
furnished to the Federal Highway Administration       McDaniels Construction Corporation, Inc.
for suspension/debarment consideration. The           (MCC) and MCC’s Chief Executive Officer,
investigation was worked jointly with the             Daniel Moncrief, were ordered on January 2
U.S. Department of Labor/OIG.                         in U.S. District Court, Columbus, Ohio, to
                                                      pay $105,669 in restitution for making a false


	                                                                          Highway and Transit Programs	 25
Audits and Investigations (continued)

statement on a Federal highway project. Moncrief     Kansas Asphalt Paving Company and
was sentenced to 5 years probation and 100 hours     Company Officials Agree to Pay $950,000
of community service. MCC was sentenced to           for False Claims on DOT-Funded
3 years probation, fined an additional $10,000,      Construction Projects
and ordered to conduct 100 hours of community        January 15, 2008
service—to be completed by Eric Girard, MCC’s
President and Treasurer. This joint investigation    Asphalt paving company Heckert Construction
with the U.S. Department of Labor/OIG alleged        Company, Inc. (HCC); the company’s
that MCC, a certified Disadvantaged Business         President, Roger A. Heckert; and the company’s
Enterprise (DBE) company, was acting as a pass-      Vice‑President, Charles Heckert, signed a civil
through DBE company on a federally funded            settlement agreement on January 15 in U.S.
highway project worth $37 million. The prime         District Court, Kansas City, Missouri, to settle
contractor for a portion of the project, Kokosing    false claims made on several federally funded
Construction Corporation, certified to the Ohio      transportation projects in Kansas between
Department of Transportation (ODOT) that MCC         1996 and 2004. The company and the two
was to perform seeding, mulching, and ditch          Heckert brothers jointly agreed to pay a civil
protection as the DBE subcontractor. However,        fine totaling $950,000 ($120,000 for attorney
a non-DBE contractor, Deitering Landscaping          fees and $830,000 to the United States).
Incorporated (DLI), performed the work. MCC
received a 5 percent fee for acting as a DBE front       This case was initiated based on a Qui Tam
company. MCC and Moncrief have been referred         complaint alleging that HCC operated portable
to the Federal Highway Administration and            asphalt plants and used a computer program
ODOT for debarment consideration.                    to calibrate and record the number of tons of
                                                     asphalt mixed and loaded into trucks at these
                                                     plants. HCC would then have the program
                                                     fraudulently reduce the asphalt loaded by one
                                                     ton. For example, instead of loading 20 tons of
                                                     asphalt, 19 tons were loaded, but the company
                                                     would bill the government for 20 tons. The
                                                     investigation revealed that between 1996 and
                                                     2004, HCC submitted false claims affecting $34
                                                     million in asphalt work performed on Federal
                                                     Highway Administration (FHWA)- and Federal
                                                     Aviation Administration-funded projects in
                                                     Kansas. The federally funded projects included
                                                     a runway project, road rebuilding, bridge
                                                     reconstruction, and highway re-surfacing.
                                                     OIG referred HCC, the Heckerts, and two
                                                     HCC plant operators to FHWA for debarment
                                                     action. This investigation was conducted by
                                                     DOT/OIG, with assistance from FHWA and
                                                     the Kansas Department of Transportation.




26	 Semiannual Report to Congress
Central Artery/Tunnel (CA/T) Project                   adequately monitor claims for payment by CA/T
Prime Management Consultant and                        Project contractors on time and materials contract
Design Consultants Agree to Pay Nearly                 modifications from 2000 to 2006 and failed to
$460 Million to Resolve Criminal and Civil             provide sufficient oversight to prevent out-of-
Liabilities Related to CA/T Project                    specification concrete from being delivered to the
January 23, 2008                                       CA/T Project tunnels. DOT/OIG plans to refer
                                                       B/PB to the Federal Highway Administration
Bechtel/Parsons Brinckerhoff, J.V. (B/PB) agreed       for suspension and debarment pending further
on January 23 to pay more than $407 million            discussions with the U.S. Attorney’s Office.
to settle several Federal and State investigations
relating to its conduct as the Commonwealth            Massachusetts Construction Contractor
of Massachusetts’ management consultant for            and Company Official Charged for Roles in
the Central Artery/Tunnel (CA/T) Project.              Falsification of Change Orders on Central
B/PB agreed to resolve its criminal and civil          Artery/Tunnel (CA/T) Project
liabilities for its failure to provide adequate        February 29, 2008
construction management and oversight
services in connection with the collapse of            McCourt Construction Company, Inc. d/b/a
the I-90 Connector tunnel ceiling and the              McCourt/Obayashi, J.V. (MC/O) of Boston,
widespread defects in the slurry walls of the          Massachusetts, and company official Ryan McCourt
mainline I-93 tunnel. In addition, the project’s       were each charged in separate informations in
Section Design Consultants agreed to pay an            U.S. District Court, Boston, Massachusetts, on
additional $51 million to resolve cost recovery        February 29 with conspiracy to submit false claims
issues associated with the project’s design. In        on a CA/T Project contract. The informations
total, the United States and Commonwealth              alleged that MC/O falsely classified apprentice-
of Massachusetts will recover approximately            level trades persons as journeymen on daily reports
$458 million.                                          used to compile costs for time and materials
                                                       (T&M) change orders, thus inflating the amounts
    The settlement is the result of facts obtained     MC/O would be paid. This case was initiated
during the course of four DOT/OIG investigations.      by DOT/OIG after officials from Mass. Electric
The two most significant were investigations           Construction Company informed DOT/OIG that
associated with CA/T leaks and the tunnel ceiling      McCourt misclassified workers in another trade
collapse. B/PB’s quality assurance services were       on billings related to T&M contract modifications.
deficient because they allowed the placement of
concrete for slurry walls in the I-93 tunnel from          MC/O, the prime contractor on the CA/T
1996 to 2004 even though slurry specifications         project’s I-93 tunnel finishes contract, was charged
had not been met and failed to complete the            with conspiracy to defraud the government
required documentation noting the deficiencies.        with respect to claims submitted from 2002 to
In addition, B/PB had knowledge of significant         December 2005. The investigation disclosed
defects in the slurry walls and allowed those          that the fraud resulted in a $300,000 loss to the
defects to be inadequately repaired or not repaired.   government. Ryan McCourt, who at the time of the
B/PB also failed to provide adequate quality           fraudulent activity was in charge of the company’s
assurance services relating to epoxy ceiling bolts     claims and changes section, was charged with
in the suspended ceiling of the I-90 Connector         conspiracy to make false statements regarding
tunnel from 1999 to 2004. Lastly, B/PB failed to       Federal highway projects from July 2004 through
                                                       December 2005. MC/O’s plea hearing is scheduled

	                                                                           Highway and Transit Programs	 27
Audits and Investigations (continued)

for May 20, 2008, while McCourt’s has not yet been      Two Florida Men Plead Guilty for Their Part
scheduled. The results of this investigation will be    in CDL Fraud Scheme Involving Florida
furnished to the Federal Highway Administration         DMV Clerk
for suspension/debarment consideration. The             March 11, 2008
investigation was worked jointly with the
U.S. Department of Labor/OIG and Federal Bureau         Sergeui Leon and Eric Hernandez-Suarez pled
of Investigation.                                       guilty on March 11 in U.S. District Court, Tampa,
                                                        Florida, to wire fraud. Leon and Hernandez-
Former County Executive and His Brother                 Suarez were arrested, along with Gustavo Soler
Plead Guilty to Mail Fraud and                          (aka Tao) and Santos Alamo, in January 2008,
Embezzlement                                            for their role in a Commercial Driver’s License
March 3, 2008                                           (CDL) fraud scheme. Specifically, the DOT/OIG
                                                        investigation disclosed that the subjects conspired
Raymond Smith pled guilty to mail fraud and             to pay bribes to Yolanda Pippins, an employee
Henry Matt Smith pled guilty to embezzlement            of the Florida Division of Motor Vehicles
charges on March 3 in U.S. District Court, London,      (DMV) whose responsibility was to monitor
Kentucky. Between May 2003 and May 2006,                CDL applicants and ensure their qualifications
Raymond Smith served as Judge Executive—a               before she issued a CDL. Once Pippins received a
position that allows fiscal control and approval of     monetary bribe, she used her employment position
county expenses. During this time, he devised a         to fraudulently issue CDLs to individuals who did
scheme for his family businesses to fraudulently        not have the requisite training and documentation
obtain government money through county                  to support their qualifications. Pippins pled
contracts by diverting money to family members          guilty on August 11, 2006, to conspiracy to accept
rather than the entities listed on the original bids.   bribes in exchange for the issuance of fraudulent
Raymond Smith caused bids and invoices to be            CDLs. (Pippins was sentenced to 21 months
submitted to the county that were false and then        incarceration, to be followed by 3 years supervised
caused the county to award contracts and issue          release, and ordered to pay a $1,000 fine on
checks to the firms named on the false bids. In         March 19, 2008.) The State DMV sent letters to all
order to prevent the scheme from being detected,        144 individuals who obtained CDLs via Pippins
he mailed false information to the State Auditor’s      asking that these individuals return to the DMV
Office. Henry Matt Smith—Raymond’s brother              to ensure that the applications were processed
and the owner and manager of BKW Wood                   properly or else have their CDLs revoked.
Products, Total Timber and Total Freight—pled           Subsequently, 139 CDLs were revoked. Leon and
guilty to embezzlement and aiding and abetting          Hernandez-Suarez are scheduled to be sentenced
Raymond Smith in the misapplication of county           on June 17, 2008. This investigation was conducted
funds. Henry Matt Smith assisted his brother by         jointly with the Florida Department of Law
providing personnel from his business to perform        Enforcement and Florida Department of Highway
the work secured by false bids, helping create          Safety & Motor Vehicles.
false documents, and cashing checks generated
by the fraud scheme. Raymond Smith and Henry
Matt Smith are scheduled to be sentenced on
June 17, 2008. This case was conducted jointly with
the Federal Bureau of Investigation, with assistance
from the Kentucky State Auditor’s Office.


28	 Semiannual Report to Congress
New York Construction Company Owners                 receiving Federal funds, and mail fraud. As part
Sentenced to More Than 1 Year in Prison              of the scheme, the Loguidices submitted false,
and Return More Than $1 Million for DBE              unfiled corporate tax returns, as well as other
Fraud Scheme                                         materially false information, to New York City
March 13, 2008                                       and New York State grantee agencies to obtain
                                                     Disadvantaged Business Enterprise (DBE)
Dorothy and Michael Loguidice of Island Park,        certification. ADC, Mrs. Loguidice’s certified
New York—the owners of Andrea Doreen                 DBE trucking and excavation company, was
Construction Inc. (ADC) and JCS Construction,        awarded several subcontracts as a DBE, but
respectively—were sentenced on March 13 in           Mr. Loguidice’s company, JCS Construction, as
U.S. District Court, Central Islip, New York. Each   well as several other companies he owned (in a
defendant was sentenced to serve 15 months in        lesser capacity), actually performed the work. As
prison, to be followed by 3 years of supervised      part of the conspiracy, the Loguidices obtained
release, and ordered to pay a $12,500 fine.          a total of approximately $7.8 million in DBE
In addition, they are jointly liable for paying      subcontracts that they were otherwise ineligible
restitution to the Internal Revenue Service for      for. The Loguidices have forfeited $1.1 million
back taxes in the amount of $900,000.                to the government. DOT/OIG conducted this
                                                     investigation jointly with fellow members of the
    In March 2006, the Loguidices pled guilty to a   Long Island Federal Construction Fraud Task
previously filed indictment, which included money    Force. The Loguidices and their companies were
laundering associated with the embezzlement of       referred to the Federal Highway Administration
employee pension funds, theft from programs          for suspension/debarment in December 2007, and a
                                                     decision in this matter is pending.

                                                     New York City Department of
                                                     Transportation Officials Plead Guilty to
                                                     Federal Bribery Charges for Accepting
                                                     Bribes on DOT-Funded Projects
                                                     March 24, 2008

                                                     Balram Chandiramani, former NYC/DOT
                                                     Director of Movable Bridges, and Uday Shah,
                                                     former NYC/DOT Civil Engineer, both pled guilty
                                                     on March 24 in U.S. District Court, Brooklyn,
                                                     New York, to bribery charges. Chandiramani and
                                                     Shah admitted that they solicited and expected
                                                     to receive more than $400,000 from a general
                                                     contractor in exchange for influencing business
                                                     transactions with NYC/DOT. During the course
                                                     of the investigation, Chandiramani and Shah
                                                     received several monitored cash payoffs from
                                                     a Confidential Witness (CW) in exchange for
                                                     providing confidential inside information to the
                                                     CW regarding claim negotiations with NYC/DOT.


	                                                                       Highway and Transit Programs	 29
Audits and Investigations (continued)

The claim in question was worth approximately                The U.S. Attorney’s Office alleged that Hubler
$16.5 million. Ultimately, the CW agreed to pay         participated in a DBE pass-thru scheme that
Chandiramani and Shah more than $400,000 in             involved approximately 340 federally funded DBE
exchange for their assistance in influencing other      subcontracts valued at $121 million. Specifically,
NYC/DOT officials to settle the claim in favor          officials of SPI and CDS used Marikina
of the CW for approximately $6.45 million. In           Construction Corporation (Marikina)—a certified
addition, Shah received monitored cash payoffs          DBE—to obtain DBE subcontracts for bridge
for expediting NYC/DOT permits for the CW’s             beam installation projects with the intention of
contracting company. The projects involved in this      having CDS and SPI employees perform, manage,
bribery scheme include the Third Avenue Bridge          control, and supervise the beam installations.
project, which received DOT funding, and a New          Dennis F. Campbell, former Sales and Marketing
York City Economic Development Corporation              Vice President of SPI, admitted that SPI and CDS
project in Manhattan, which received DOT                officials allegedly prepared bid proposals and
funding through SAFETEA-LU. Sentencing dates            cost estimates on Marikina letterhead to make it
for Chandiramani and Shah have not yet been             appear that Marikina prepared the documents.
scheduled. This investigation was a collaborative       The information further alleged that SPI and
effort by DOT/OIG, the U.S. Department of               CDS paid Marikina a fixed fee—25 percent of
Labor/OIG, the Inspector General for the Port           which Campbell admitted he and Hubler each
Authority of New York and New Jersey, and the           received as a kickback—for the use of its name
New York City Department of Investigation.              in obtaining DBE contracts. Hubler and a CDS
                                                        work crew were paid from a Marikina payroll
Vice President of Pennsylvania Highway                  account to conceal the scheme. Between 2003 and
Engineering Firm Charged for Role in                    2007, Hubler and Campbell allegedly received
$121 Million DBE Fraud Scheme                           approximately $450,000 and $310,000, respectively,
March 26, 2008                                          in kickbacks from Marikina. Based on various
                                                        project certifications made by Marikina, PennDOT
On March 26, the U.S. Attorney’s Office in              counted the entire cost of the DBE subcontracts
Harrisburg, Pennsylvania, filed an information          ($121 million) toward the general contractor’s DBE
charging Timothy G. Hubler Sr., former Vice-            goals as stipulated in the various prime contracts.
President of Field Operations at CDS Engineers          Campbell pled guilty in U.S. District Court,
Inc. (CDS), with one count of conspiracy to             Harrisburg, Pennsylvania, to similar criminal
commit mail fraud and one count of tax fraud for        charges related to the DBE scheme in February
filing a false tax return. This case was initiated by   2008. A plea hearing for Hubler is scheduled for
DOT/OIG based on information provided to the            April 15, 2008. DOT/OIG has referred the matter
Federal Bureau of Investigation (FBI) by a source       to the Federal Highway Administration for
that alleged CDS—a subsidiary of Schuylkill             debarment proceedings. This is an ongoing, joint
Products Inc. (SPI)—was using a construction            investigation with the FBI, U.S. Department of
company as a Disadvantaged Business Enterprise          Labor/OIG, and Internal Revenue Service.
(DBE) front.




30	 Semiannual Report to Congress
Rail and Maritime Programs and Economic Analysis




Audits

Fourth Quarterly Report on Amtrak’s                     in streamlined food and beverage service and
FY 2007 Operational Reforms Savings and                 improved Acela service. Apart from its food and
Financial Performance                                   beverage services, Amtrak has made no progress
November 14, 2007                                       in the major areas of route restructuring, full cost
                                                        recovery of state-supported services, and labor
As mandated by the FY 2007 Appropriations Act           efficiencies. Instead, significant budget savings
for the Department of Transportation, we issued         came from favorable market conditions rather
our fourth quarterly report to the House and            than structural change in Amtrak’s operating
Senate Appropriations Committees on Amtrak’s            environment. Amtrak’s financial performance was
savings from operational reforms and year-to-date       stronger than expected. Amtrak’s FY 2007 cash
financial performance. Amtrak has realized almost       operating loss of $429 million was $56 million
$53 million of the $61 million in FY 2007 reform        lower than its budgeted level of $485 million
savings than it originally anticipated. The shortfall   and lower than its $452 million cash operating
in savings resulted from Amtrak eliminating             loss in FY 2006. Amtrak’s cash balance at the
its sleeper right-sizing and call center initiatives    end of FY 2007 was $244 million, compared to
earlier in the year. Amtrak has made progress in        $215 million in FY 2006. The lower cash balance
implementing some of its reforms, most notably          reflects unplanned year-end spending of about

	                                                         Rail and Maritime Programs and Economic Analysis	 31
Audits and Investigations (continued)

$60 million to purchase leased coach and food        Effects of Amtrak’s Poor On-Time
service cars and prepaying its FY 2008 Railroad      Performance
Rehabilitation and Improvement Financing             March 28, 2008
Program (RRIF) loan payment.
                                                     This report represents the results of our
Users of Air Traffic Control Services                audit of the effects of Amtrak’s poor on-time
March 3, 2008                                        performance (OTP). This audit was requested by
                                                     the Surface Transportation Subcommittee of the
This report represents the results of our audit      Senate Committee on Commerce, Science, and
on the use of the National Airspace System           Transportation. The objective of this audit was to
(NAS). This audit was conducted at the request of    produce a quantitative assessment of the impact
Representative John L. Mica, then Chairman of        of Amtrak’s poor OTP on Amtrak’s finances.
the House Aviation Subcommittee. Our objectives      Achieving reliable OTP would substantially
were to determine (1) how different groups use       improve Amtrak’s finances. We estimate, for
NAS elements, (2) how that usage contributes         example, that an 85 percent OTP off the Northeast
to aviation congestion, (3) whether NAS users        Corridor (NEC) in FY 2006 would have reduced
can be grouped in a meaningful manner based          Amtrak’s operating loss by 30 percent or
on their usage of the system, and (4) how good       $136.6 million. Amtrak’s revenues would increase
a proxy is jet fuel for the use of FAA air traffic   by $111.4 million as more travelers would choose to
services. We found that air carriers and non-air     take the train if they became more confident that it
carriers, including general aviation and business    would arrive on time. Amtrak’s expenses would be
jet operators, all make sufficient use of the NAS    reduced by $39.3 million mostly due to less required
so as to materially contribute to FAA’s costs and    overtime as a result of fewer late trains, and lower
congestion in general. We also found alternative     fuel costs as a result of less time spent idling and
NAS user groupings that are more homogeneous         less frequent accelerations and decelerations. The
in terms of their use of FAA services than the       improved OTP would also require an increase
groupings reflected in the current aviation excise   in net performance payments paid to the host
tax structure. Finally, we found that jet fuel       railroads of $14.1 million. Working with the host
consumption is a better proxy for the use of the     railroads to achieve an 85 percent OTP off the NEC
NAS than the current aviation excise taxes, but      would be a difficult task; however, Amtrak may be
it does not measure whether air traffic control      able to utilize a portion of the projected benefits to
services are used, nor does it distinguish between   further incentivize the host railroads to provide this
the types and complexities of services used.         enhanced level of service.




32	 Semiannual Report to Congress
Investigations

Major Railroad Company Agrees to                     various State and county charges related to the June
Pay $7.35 Million for Polluting                      2006 train derailment that spilled 42,000 gallons
Pennsylvania Waterway                                of sodium hydroxide waste into the soil, wetlands,
November 15, 2007                                    and waters of two counties in northwestern
                                                     Pennsylvania. The Federal Railroad Administration
Norfolk Southern Corporation (NS), a shipping        (FRA) investigation determined that the NS freight
and transportation company, pled no contest on       train crew failed to apply air brakes after cresting
November 15 to Pennsylvania State and McKean         a hill. Shortly after the accident, NS dismissed
County environmental charges and agreed to pay       Seifert and the train’s conductor, Stevan Rogers.
$7.35 million to settle civil charges related to a   Seifert is scheduled to go to trial in June 2008.
high-speed train derailment that spilled caustic     The case is being investigated jointly with FRA,
chemicals into a northwestern Pennsylvania           the Pennsylvania Office of Attorney General, the
waterway. In July 2007, NS and Michael Seifert, a    Pennsylvania State Police, and the Pennsylvania
company Train Engineer, were both charged with       Department of Environmental Protection.




	                                                      Rail and Maritime Programs and Economic Analysis	 33
Financial and Information Technology




Audits

Information Security Program at the                    program declined this year because management
Department of Transportation                           had to divert resources and attention to resolving
October 10, 2007                                       Headquarters move-related issues. Specifically,
                                                       management did not meet Government security
This report represents the results of our annual       standards to protect information systems
audit of the Department of Transportation’s            and did not take sufficient action to correct
Information Security Program as required by the        identified security deficiencies. We also found
Federal Information Security Management Act            that commercial software products used in
(FISMA). FY 2007 was a particularly challenging        departmental systems were not configured in
year for the Department in managing its IT             accordance with security standards and security
resources. In addition to establishing a common        incidents were incompletely and/or inaccurately
IT infrastructure for the new Headquarters, it         reported. In terms of correcting the two security
had to review, test, and certify security protection   weaknesses identified previously in the air traffic
in more than half of its information systems           control system—contingency planning and
to meet the recertification requirement. While         review of operational air traffic control systems
the Department has completed most of the               security—FAA demonstrated renewed initiative in
scheduled security recertification reviews, the        undertaking multiyear correction efforts starting
overall effectiveness of its information security      in FY 2007. FAA also made modest progress in

	                                                                    Financial and Information Technology	 35
Audits and Investigations (continued)

enhancing the implementation of Earned Value
Management for major IT investment projects.
Nonetheless, challenges remain in both areas.

Audit of Security and Controls Over the
National Driver Register
October 29, 2007

This report represents the results of our audit
of the National Driver Register (NDR) system
administered by the National Highway Traffic
Safety Administration (NHTSA). NDR is a
central register that enables state department of
motor vehicle officials to exchange information
 on problem drivers in each state, such as those
convicted of driving under the influence of alcohol.
This helps prevent problem drivers from obtaining
a drivers license to operate a vehicle or being
hired for safety-sensitive positions. In 2006, state
officials made more than 70 million inquiries for
driver license applicants, 9 million of which were
found in NDR. Forty-two million problem drivers
are recorded in NDR with personally identifiable
information, such as driver’s name, Social Security
number, date-of-birth, gender, height, weight,
and eye color. We found that drivers’ personally       were improperly removed from the NDR database.
identifiable information was properly secured in       NHTSA concurred with our findings and
the NDR mainframe database; however, when              recommendations.
transmitted or stored outside the mainframe
computer, it was exposed to potential unauthorized     Quality Control Review of NTSB’s FY 2007
access or unapproved use. For example, this            and FY 2006 Financial Statements
sensitive information was not encrypted when           November 9, 2007
transmitted on the network. We also found
deficiencies with the data stored in NDR. For          This report represents the results of our quality
example, problem drivers were not recorded in          control review of the audit of the National
NDR in a timely manner—millions were not               Transportation Safety Board’s FYs 2007 and 2006
recorded until at least 1 year following conviction.   financial statements. Leon Snead & Company, P.C.,
This increases the potential that problem drivers      under contract to us and under our supervision,
could obtain a valid license in another state. In      issued a clean (unqualified) audit opinion but
addition, we found that information regarding          reported two material weaknesses, the information
drivers’ physical attributes, such as height, eye      technology security program and selected
color, was missing from about 18 million records;      accounting operations and controls. Snead &
there were more than 161,000 duplicate Social          Company also reported a significant deficiency in
Security numbers; and problem driver records           cost accounting.


36	 Semiannual Report to Congress
Quality Control Review of the Saint                    that FAA has overcome last year’s qualified
Lawrence Seaway Development                            opinion on the Construction in Progress (CIP)
Corporation’s FY 2007 and FY 2006                      account, which is part of the Properly, Plant,
Financial Statements                                   and Equipment line item on the balance sheet.
November 9, 2007                                       However, KPMG reported that FAA’s property
                                                       management, including CIP operations, remain a
This report represents the results of our quality      material weakness and require close monitoring.
control review of the audit of the Saint Lawrence      In addition, KPMG identified two significant
Seaway Development Corporation’s FYs 2007              deficiencies in FAA’s oversight of inventory and
and 2006 financial statements. Dembo, Jones,           financial systems controls, and a noncompliance
Healy, Pennington, & Marshall, P.C., under             issue concerning the Federal Financial
contract to the Seaway, issued a clean (unqualified)   Management Improvement Act. Complete
audit opinion and reported no internal control         Financial Statements are included in the FAA’s
deficiencies.                                          2007 Performance and Accountability Report.

Quality Control Review of the Highway Trust            Quality Control Review of the FAA
Fund’s FY 2007 and FY 2006 Financial                   Administrative Services Franchise Fund’s
Statements                                             FY 2007 and FY 2006 Financial Statements
November 9, 2007                                       November 13, 2007

This report represents the results of our quality      This report represents the results of our
control review of the audit of the Highway Trust       quality control review on the audit of the FAA
Fund’s FYs 2007 and 2006 financial statements.         Administrative Services Franchise Fund’s FYs 2007
KPMG LLP, under contract to us and under our           and 2006 financial statements. KPMG LLP, under
supervision, issued a clean (unqualified) audit        contract to us and under our supervision, issued
opinion and reported no material weaknesses.           a clean (unqualified) audit opinion. However,
KPMG identified three significant deficiencies in      KPMG identified three significant deficiencies
agencies’ accounting processes (journal entries and    in the Franchise Fund’s oversight and analytical
account relationships), grant accrual, and financial   review of financial statements, support for shipping
systems controls. Starting in 2008, the Department     documents, and information technology controls
will no longer prepare stand-alone Highway Trust       over the Franchise Fund and third-party systems
Fund financial statements. All activities will be      and applications. In addition, KPMG identified
audited as part of DOT’s consolidated financial        one noncompliance issue concerning Public
statements.                                            Law 104‑205.

Quality Control Review of FAA’s FY 2007 and            Report on DOT’s Consolidated Financial
FY 2006 Financial Statements                           Statements for FY 2007 and FY 2006
November 9, 2007                                       November 13, 2007

This report represents the results of our quality      This report represents the results of our audit
control review of the audit of the FAA FYs 2007        of Department of Transportation’s (DOT)
and 2006 financial statements. KPMG LLP, under         Consolidated Financial Statements for FYs 2007
contract to us and under our supervision, issued       and 2006. We concluded that DOT’s consolidated
a clean (unqualified) audit opinion. This signals      financial statements are fairly presented, in all


	                                                                    Financial and Information Technology	 37
Audits and Investigations (continued)

material respects, in conformity with generally        We concluded that DOT’s special-purpose
accepted accounting principles. The clean              financial statements present fairly, in all material
(unqualified) opinions signal to the public that the   respects, the financial position of DOT as of
Department has successfully overcome last year’s       September 30, 2007, and September 30, 2006, and
qualified opinion on the Construction in Process       its net costs and changes in net position of the
(CIP) balance, which is a subcomponent of the          years then ended in conformity with accounting
Property, Plant, and Equipment line item on the        principles generally accepted in the United
Department’s balance sheet. We reported FAA’s          States and Treasury’s reporting requirements.
CIP-related process a continued material weakness.     We also found no material weaknesses or
We also reported four significant deficiencies         noncompliance with laws or regulations
associated with the Department’s internal controls     governing the financial reporting process for
regarding Highway Trust Fund agency accounting         the special-purpose financial statements.
operations, financial systems controls, DOT
information security program, and the Federal          Management Letter on Consolidated
Transit Administration grant accrual. In addition,     Financial Statements for FYs 2007 and 2006
we reported four noncompliances with laws and          January 31, 2008
regulations in the areas of Federal Financial
Management Improvement Act, Antideficiency             This letter presents issues identified in the audit of
Act, Improper Payments Information Act, and            the Department of Transportation’s Consolidated
Managerial Cost Accounting Concepts and                Financial Statements for FYs 2007 and 2006
Standards. Complete Financial Statements               that did not meet the materiality threshold to
are included in DOT’s 2007 Performance and             be included in our November 15, 2007, audit
Accountability Report.                                 report but still warrant management attention.
                                                       The issues identified included reporting of FTA
Report on DOT’s Special-Purpose Financial              contingencies and earmarked funds; untimely
Statements for FY 2007 and FY 2006                     processing of MARAD property, plant, and
November 15, 2007                                      equipment transactions; reconciling and
                                                       classifying intragovernmental transactions;
This report presents the results of our audit          analyzing intradepartmental transactions;
of the Department of Transportation’s (DOT)            untimely research of budgetary to proprietary
FYs 2007 and 2006 Special-Purpose Financial            account variances; untimely clearing of suspense
Statements. The Department prepared the special-       accounts; and untimely accrual of earned revenue.
purpose financial statements to support the            We summarized these issues primarily to facilitate
U.S. Department of the Treasury in compiling           management’s development of corrective actions.
the Financial Report of the U.S. Government.




38	 Semiannual Report to Congress
Acquisition and Procurement




Audits

Letter to Chairman Oberstar Regarding                 (CFR). Our review found that 1) although
the Award of St. Anthony’s Falls (I‑35 W)             Flatiron/Manson’s bid had the highest price and
Bridge Replacement Project                            longest time frame for completion, the contract
December 19, 2007                                     award process used by MN/DOT followed the
                                                      requirements of 23 U.S.C. 112 and 23 CFR,
This letter to James Oberstar, Chairman of            Part 636, for design-build contracting, and
the House Committee on Transportation and             2) the following factors influenced the selection
Infrastructure, represents the results of our         of the winning bid: (a) deciding to use a best-
review of contract award processes following the      value selection process instead of awarding
August 1, 2007 collapse of the St. Anthony Falls/     the contract based on low bid, (b) placing
I-35W Bridge. Chairman Oberstar requested a           greater emphasis on public relations and
review of the process used in selecting the winning   aesthetics than in previous design-bid projects,
bid for the contract to rebuild the St. Anthony       (c) establishing a new proposal evaluation factor
Falls/I‑35W Bridge and determine whether              called geometric enhancements, and (d) scoring
that process complied with the requirements of        certain elements of the winning bid as exceeding
23 U.S.C. 112 and 23 Code of Federal Regulations      basic Request for Proposal requirements.



	                                                                           Acquisition and Procurement	 39
Audits and Investigations (continued)

Interim Report on Award-Fee Criteria for the           FAA’s contract objectives are being met. We also
National Airspace System Implementation                recommend FAA acquisition officials reevaluate
Support II Contract and Bridge Contract                the use of award-fee contracts for future NISC
February 27, 2008                                      procurements.

We issued an interim report regarding the              Assessment of Cost Accounting System
National Airspace System Implementation Support        and Practices, FAA
II Contract (NISC II) and the follow-on bridge         March 21, 2008
contract. This interim report is a part of our
ongoing audit of the Use of Cost-Plus-Award-           This report represents the results of our
Fee (CPAF) contracts within the Department. We         audit of FAA’s cost accounting system and
found that FAA did not structure and implement         practices. During FY 2006, FAA completed the
the ongoing NISC II award-fee contract in a way        implementation of the cost accounting system
that effectively motivated the contractor to improve   and, in FY 2007, finalized implementation of a
performance and achieve acquisition outcomes–          labor distribution system. Overall, we found that
defined in terms of program costs, schedule, and       the cost accounting system is properly designed
performance. Additionally, FAA contracting             to assign costs directly to responsible service
officials did not justify the cost effectiveness of    organizations, however, management needs to
selecting a CPAF-type contract. FAA officials          stay vigilant in order to maintain the integrity of
are implementing actions to meet the intent of         the underlying financial data, continue enhancing
our recommendations by clearly identifying             controls over labor cost distribution, identify
measurable award-fee criteria for assessing            the full cost of facilities and use these cost data
contractor performance and linking the criteria        to manage operations, and ensure the cost
to acquisition outcomes. We estimate that the          accounting processes are properly documented.
planned corrective actions will put approximately      FAA concurred with four of the five OIG
$18.2 million in expected award fees for the           recommendations and is taking reasonable action
bridge contract to better use by ensuring that         to resolve the remaining recommendation.




40	 Semiannual Report to Congress
Department-Wide Issues




Audits
Testimony on Challenges Facing the                     DOT’s FY 2008 Top Management Challenges
U.S. Department of Transportation,                     November 15, 2007
Fiscal Year 2008
October 18, 2007                                       This report represents our annual assessment
                                                       of the top management challenges facing the
The Inspector General testified before the             Department, as required by law. The issues
Senate Committee on Commerce, Science, and             comprising this year’s report are: continuing to
Transportation regarding DOT’s top management          enhance oversight of the surface transportation
challenges. He highlighted key challenges facing       infrastructure and maximizing the return on
DOT in the following three cross-cutting areas:        investments in infrastructure projects, addressing
(1) strengthening oversight to ensure surface safety   long- and short-term challenges for the National
and make the most of the Federal investment            Airspace System, developing a plan to address
in highway and transit projects, (2) enhancing         the highway and transit funding issues, reducing
the safety of the Nation’s aviation system, and        congestion, improving oversight and strengthening
(3) reducing airline delays, meeting anticipated       enforcement of surface safety programs,
demand for air travel, and addressing challenges       continuing to make a safe aviation system safer,
for operating, maintaining, and modernizing the        strengthening the protection of information
National Airspace System.                              technology resources, managing acquisition and

	                                                                               Department-Wide Issues	 41
Audits and Investigations (continued)

contract operations more effectively, and reforming   in the Department’s FY 2007 Performance and
intercity passenger rail. The report was included     Accountability Report.




Investigations

Former FAA Senior Advisor Pleads Guilty To            National Guard; however, Estrada was not eligible
Theft for Filing False Travel Vouchers                for military leave because he had separated from
October 18, 2007                                      the D.C. Air National Guard Bureau in 1991 as
                                                      a Technical Sergeant. Estrada created fraudulent
Howard L. Swancy, a former Senior Advisor             military orders and then used them to deceive FAA
(GS-15 equivalent) to the Federal Aviation            officials when requesting military leave benefits.
Administration (FAA) Deputy Administrator,            Estrada, who made full restitution to FAA in
pled guilty on October 18 to First Degree Fraud       advance of the plea proceedings, was terminated
in D.C. Superior Court. Swancy entered into a         from FAA in March 2008. His sentencing is
deferred sentencing agreement, which allows           scheduled for April 25, 2008.
his sentencing to be continued for 6 months
during which time he must complete 40 hours           FAA Contractor Pleads Guilty to Bribing
of community service and the fraud charge will        Former FAA Employee
be dismissed. Swancy filed five fraudulent travel     February 6, 2008
vouchers, including altered and fabricated hotel
receipts, resulting in him wrongfully receiving       Maria Lianidis, President of Digital Management
more than $5,200 between March 2005 and               Systems, Inc. (DMS)—a computer engineering
January 2007. Swancy resigned from FAA in             company based in Absecon, New Jersey—pled
March 2007 during the course of DOT/OIG’s             guilty in U.S. District Court, Trenton, New Jersey,
investigation. A status hearing has been scheduled    on February 6 to bribing Darrell K. Woods, a
for April 2008 to determine whether Swancy has        former Federal Aviation Administration (FAA)
complied with the court’s order.                      Program Manager. Lianidis specifically pled
                                                      guilty to 3 counts of a 26-count indictment,
FAA Aviation Safety Inspector Pleads Guilty           acknowledging that on 3 instances in 2003 she
to Theft in False Military Leave Scheme               paid Woods more than $23,000 in cash bribes.
January 29, 2008                                      Woods, in his role as a Program Manager, steered
                                                      approximately $6.7 million in contracts and
Emilio Estrada, Aviation Safety Inspector (GS-14)     purchase orders to DMS. Bribes paid by Lianidis
for the Federal Aviation Administration (FAA),        influenced Woods in the performance of his
pled guilty on January 29 in U.S. District Court,     official duties, as he allowed her to participate in
District of Columbia, to theft of government          the creation of FAA contract solicitations that
property. DOT/OIG’s investigation revealed that       DMS ultimately bid on and won. Woods also
from 2000 through July 2006, Estrada requested        steered several sole-source contracts to DMS. DMS
and was granted military leave on 19 different        was bidding on a solicitation valued in excess of
occasions, which cost the FAA $24,432.28. Estrada     $34 million when DOT/OIG and the Internal
told co-workers he was a General in the Air           Revenue Service executed search warrants in


42	 Semiannual Report to Congress
February 2005. The solicitation was ultimately     on six occasions between November 2004 and
canceled. Woods pled guilty in June 2007 to        September 2006 to sell $789 worth of DOT-issued
wire fraud and money laundering for his role in    transit benefits. In October 2006, DOT/OIG
the bribery and contract-steering scheme; he is    initiated a joint investigation with the Government
awaiting sentencing. FAA has suspended Lianidis    Accountability Office (GAO) as a result of GAO’s
and DMS from government contracting. Forfeiture    reported findings that government-issued transit
of the criminal proceeds derived from the scheme   benefits were being sold over the Internet by
will be determined when Lianidis is sentenced.     Federal employees. The FHWA employee has
The case was investigated by DOT/OIG and the       completed serving their 30-day suspension and
Internal Revenue Service/Criminal Investigation    made full repayment to FHWA.
Division, with FAA’s assistance.
                                                   Fraud Awareness Video on False Statements
FHWA Employee Suspended from Duty and              and Claims
Directed to Repay Government for Selling           March 26, 2008
DOT-Issued Transit Benefits on e-Bay
March 11, 2008                                     Each year the U.S. Department of Transportation
                                                   (DOT) spends about $70 billion on transportation-
The Federal Highway Administration notified        related projects. On March 26, the Office of
DOT/OIG on March 11 that a FHWA employee           Inspector General (OIG) released a fraud awareness
was suspended from duty on January 12, 2008,       video on false statements and claims to provide
for a period of 30 days and directed to repay      government officials, contractors, and the public
FHWA $789 as a result of DOT/OIG’s findings that   with an increased understanding of common fraud
the employee used their personal eBay account      schemes and strengthen collaborative efforts aimed




	                                                                           Department-Wide Issues	 43
Audits and Investigations (continued)

at the prevention and detection of fraud involving      DOT programs to the Office of Inspector General
transportation programs and activities. Using a         Hotline. Citizens have entrusted all levels of
“Cable News” format, the video presents examples        government to ensure that their tax dollars are
of investigations that resulted in criminal and civil   being wisely spent on transportation infrastructure
penalties for business and individuals who, while       projects that enhance the safety, security, and
working on contracts funded in part by Federal          mobility of the traveling public. OIG will continue
transportation funds, engaged in fraud which            to work together with its Federal, State, and local
cheats American taxpayers. In addition, the video       law enforcement, prosecutorial, and transportation
provides legal perspectives on false statements         colleagues to maintain the public’s confidence in
and claims and fraud, as well as “red flag” fraud       the integrity of our Nation’s transportation system.
indicators to help those in the transportation          To request a free copy of the video on DVD,
community, government employees, and                    please submit your name and business address to
contractors alike know what to look for. The            FraudVideo@oig.dot.gov.
video also tells viewers how to report possible
fraud, waste, abuse, and other irregularities in




44	 Semiannual Report to Congress
                                                          Work Planned and in Progress


T
      his section describes significant work projects currently underway or planned by the Office
      of Inspector General that focus on the Department’s Strategic Plan and its core missions of
      transportation safety and mobility. We take into account the need to support DOT’s most critical
programs and to assure that departmental resources are protected from fraud and waste. In addition,
many of our projects arise from requests by Administration officials and members of Congress.

   The OIG has developed the following work plan for the period of April 1, 2008, through
September 30, 2008.


Aviation and Special Programs
❚❚ Air Carriers’ Outsourcing of Aircraft                     implementation process for capacity initiatives
   Maintenance                                               and how the interrelationship among the various
                                                             efforts are managed.
    Determine the type and quantity of maintenance
    performed by outside repair stations, and              ❚❚ Review of FAA’s Air Traffic Controller
    whether FAA is effectively monitoring air                 Facility Training Program
    carriers’ oversight of the work performed by
    outside repair stations and verifying whether            Assess the adequacy of FAA’s plans to effectively
    safety requirements are met.                             train an increasing number of new controllers at
                                                             the facility level and determine FAA’s progress in
❚❚ Federal Telecommunication Infrastructure                  implementing key initiatives for reducing facility
   (FTI) Transition Risks and its Impact on Air              training time and costs.
   Traffic Control Operations
                                                           ❚❚ FAA’s Management and Maintenance of
    Assess FAA’s progress in developing an effective          Air Traffic Control Facilities
    transition plan and realistic master schedule, and
    determine if FAA is mitigating risks to air traffic      Determine if FAA has (1) developed and
    control operations by coordinating activities            implemented a comprehensive strategy to
    and validating site-specific requirements before         effectively manage the replacement, repair, and
    activating FTI service and disconnecting                 modernization of its air traffic control facilities;
    existing telecommunications service.                     and (2) allocated sufficient funds to carry out
                                                             those activities.
❚❚ Air Carrier’s Aviation Safety Action
   Programs (ASAP)                                         ❚❚ Implementation of the Pipeline Security
                                                              Annex
    Evaluate allegations regarding the improper use
    of ASAP and determine how reports submitted              Provide the implementation status of the
    for inclusion into ASAP are evaluated and                program elements outlined in the annex;
    subsequently investigated by air carriers and FAA.       determine the role, responsibility, and authority
                                                             of PHMSA regarding pipeline security; assess
❚❚ FAA Short-Term Capacity Initiatives                       the adequacy and effectiveness of the process by
                                                             which PHMSA communicates and coordinates
    Identify the initiatives, both technological and         with TSA on matters relating to pipeline
    procedural, that will provide the most capacity          security; and address the adequacy of security
    benefits in the next 5 years and examine FAA’s           standards for gas and oil pipelines.

	                                                                                Work Planned and in Progress	 45
Work Planned and in Progress (continued)

❚❚ Review of FAA’s Automatic Dependent                   responsibilities of the Air Traffic Organization
   Surveillance Broadcast (ADS-B) Program                and FAA’s Aviation Safety line of business in
                                                         reporting and investigating operational errors.
  Examine key risks of FAA’s successful
  implementation of ADS-B and assess the               ❚❚ Review of Actions Taken to Improve
  strengths and weaknesses of FAA’s proposed              Airline Customer Service and Minimize
  contracting approach.                                   Long, On-Board Delays
❚❚ FAA Oversight of Commuter and                         Examine Summer 2007’s record-breaking
   On‑Demand Operators                                   flight delays, their causes, and actions needed
                                                         to mitigate recurrence of such events; and
  Evaluate the differences between FAA                   assess DOT’s, FAA’s, the airlines’, and airports’
  regulations and oversight for commuter and             progress in implementing the actions outlined
  on-demand operators versus larger commercial           in the Office of Inspector General’s testimony
  air carriers; and, identify specific issues that       of September 26, 2007 before the House
  may hinder FAA in its oversight, such as a lack        Subcommittee on Aviation.
  of adequate data on commuter and on-demand
  operations.                                          ❚❚ Air Traffic Controller Trainee Attrition
❚❚ Runway Safety Areas                                   Determine whether (1) the attrition rate among
                                                         newly-hired air traffic controllers, and (2) the
  Evaluate FAA’s processes for identifying,              common causes and factors that are contributing
  prioritizing, and funding needed runway                to the attrition rate.
  safety area enhancements and assess FAA’s and
  airports’ progress in fulfilling the congressional   ❚❚ Intelligent Transportation Systems Joint
  mandate.                                                Program Office (ITS/JPO)
❚❚ FAA Aviation Safety Inspector Staffing                To assess the effectiveness of the ITS/JPO in
                                                         providing program direction, managing funds,
  Determine whether (1) FAA has established an           conducting progress reviews, and evaluating the
  effective process for monitoring staffing levels       results of the ITS program.
  in light of potential inspector attrition, and
  (2) FAA’s hiring and training practices ensure       ❚❚ City of San Francisco Use of Federal
  the inspector workforce is well-qualified and has       Transit Administration Funds
  the right skill set.
                                                         Determine if Federal transportation funding
❚❚ Review of FAA’s Process for Investigating             is being used by the City of San Francisco to
   and Reporting Operational Errors (OEs)                pay for lobbying activities or are being used to
   and Pilot Deviations                                  supplant city transportation funds that have
                                                         been directed toward lobbying.
  Determine whether (1) FAA has adequate
  policies and procedures in place to ensure
  the accuracy and consistency of operational
  error reporting, and (2) review the roles and




46	 Semiannual Report to Congress
Highway and Transit Programs
❚❚ Amount and Use of Revenue Derived                     carriers of passengers, currently operating or
   from the Commercial Drivers License                   expected to operate in the United States, comply
   Information System Modernization                      with Federal Motor Vehicle Safety Standards.

    Analyze the amounts and use of the revenues         ❚❚ Assessment of the Central Artery/Tunnel
    derived from fees charged for use of the               Stem to Stern Safety Review —Phase II
    commercial driver’s information system.
                                                         Continue our work to ensure that the Central
❚❚ Baseline Report on Major Project                      Artery/Tunnel Stem to Stern Safety Review is
   Monitoring of the Lower Manhattan                     comprehensive and conducted in a complete
   Recovery Projects                                     and rigorous manner. We will also follow up on
                                                         the corrective actions taken in response to our
    Assess (1) the status of the Lower Manhattan         report “Initial Assessment of the Central Artery/
    Transit Recovery Projects including cost,            Tunnel Project Stem to Stern Safety Review.”
    schedule, funding, and Lower Manhattan
    Recovery Office management, and (2) any risks       ❚❚ Federal Highway Administration
    that may adversely impact a project’s completion.      Transportation Technology Innovation
                                                           and Demonstration (TTID) Program
❚❚ FHWA’s Corrective Actions Regarding
   Load Ratings and Weight Postings                      Assess (1) whether the TTID has met the
                                                         statutory goals of building a traffic measurement
    Assess the corrective actions taken by FHWA to       infrastructure, providing commercial revenue
    address the recommendations made by the OIG          generation initiatives, and aggregating and
    in our March 6, 2006 audit report entitled Audit     reporting surveillance data; and (2) whether the
    of Oversight of Load Ratings and Postings on         FHWA has met the competitive procurement
    Structurally Deficient Bridges on the National       requirements in Part II, which were intended
    Highway System.                                      to expand the number of firms providing
                                                         surveillance services.
❚❚ Audit of FHWA Funding to Correct
   Structurally Deficient Bridges                       ❚❚ New Starts Capital Cost Estimating
                                                           Process
    Assess the extent to which states effectively
    and efficiently use FHWA funds to correct            Evaluate the process FTA uses to ensure that
    structurally deficient bridges.                      capital cost estimates for New Starts projects
                                                         are credible, complete, and meet applicable
❚❚ Review of Canadian/Mexican Commercial                 requirements; and 2) assess the role of PMOC’s
   Motor Vehicle Compliance                              in reviewing capital cost estimates and
    Provide comments and observations on the             determine whether FTA makes effective use of
    scope and methodology of FMCSA’s report on           their work.
    the degree to which Canadian and Mexican
    commercial motor vehicles, including motor



	                                                                           Work Planned and in Progress	 47
Work Planned and in Progress (continued)


Rail and Maritime Programs and Economic Analysis
❚❚ Benefits of True High-Speed Rail on the               financing of transportation infrastructure
   Northeast Corridor                                    projects through the issuance of debt by
                                                         government or quasi-government entities in the
  Quantify the financial and public benefits of true     public or municipal bond markets; (2) evaluate
  high-speed rail in the Northeast Corridor.             the benefits and value realized through PPPs to
                                                         both the private and public sector in order to
❚❚ Amtrak Quarterly Reports on Operational               determine the overall equity of the transactions;
   Savings                                               and (3) determine whether, and to what extent,
  As mandated by Congress, we will issue                 PPPs result in operating efficiencies.
  quarterly reports to the House and Senate
                                                       ❚❚ Oversight of Track-Related Safety Issues
  Committees on Appropriations on our estimates
  of the savings accrued as a result of operational      Evaluate the Federal Railroad Administration’s
  reforms instituted by Amtrak.                          (FRA) oversight of track safety on the Nation’s
                                                         freight rail lines to determine whether it
❚❚ Root Causes of Amtrak Delays                          identifies track defects that may impact safety
  Investigate the root causes of Amtrak delays           and takes appropriate actions to improve
  and compliance with 49 USC Section 24308(c)            railroad operations. Specifically, we will
  which gives Amtrak trains preference in the            analyze the results of FRA’s inspections of
  use of freight owned track over freight rail           track, roadbed, and related structures; and
  transportation.                                        investigations of accidents caused by track
                                                         defects.
❚❚ Assessment of Amtrak’s Financial
   Performance                                         ❚❚ Implementation of Mandates and
                                                          Recommendations Regarding Rail Safety
  Evaluate and analyze Amtrak’s current financial
  status and the operational factors contributing to     Assess the Federal Railroad Administration’s
  that status.                                           progress in implementing congressional
                                                         mandates and recommendations made by the
❚❚ Amtrak’s Planned Capital Expenditures                 National Transportation Safety Board and the
                                                         Office of Inspector General regarding railroad
  At the request of Congress, evaluate the               safety.
  appropriateness of Amtrak’s planned capital
  expenditures.                                        ❚❚ Review of Amtrak’s Five-Year Capital Plan

❚❚ Transportation Related Public-Private                 Review and assess how effectively Amtrak
   Partnerships (PPP)                                    prioritizes and coordinates its capital
                                                         investments to contribute to the overall business
  Determine whether (1) the cost advantages              goals of the corporation.
  and disadvantages to the public sector of PPP
  transactions compared to the more traditional




48	 Semiannual Report to Congress
Financial and Information Technology
❚❚ FAA’s Information Security and Privacy              ❚❚ Integrity of IT Investment Business Case
   Controls over the Medical Support System               (E-300) Process
    Determine whether the airmen’s personally            Determine (1) what management reviews
    identifiable information is properly secured         were done to ensure the integrity of OAs’
    from unauthorized use or access, and assess          E-300 submission, (2) what mechanisms
    FAA’s progress in establishing a program to          were used to identify problem projects for
    flag airmen holding current medical certificates     IRB review, (3) whether changes to cost and
    while receiving disability pay.                      schedule baselines were properly reviewed and
                                                         documented, and (4) whether OAs accurately
❚❚ FAA’s Corrections of Security Weaknesses              reported security costs on E-300.
   in Air Traffic Control Systems
                                                       ❚❚ Data Integrity of the Commercial Driver
    Assess the progress and report on the status          License Information System (CDLIS)
    of FAA’s effort to correct security weaknesses
    identified previously in air traffic control         Determine whether, (1) convictions and other
    systems—(1) developing a Business Continuity         personal identifiable information recorder in
    Plan to ensure continued en route center             CDLIS are accurate, timely, and complete; and
    operations and (2) conducting security               (2) a mechanism is in place to track, prioritize,
    certification reviews to identify software           and mitigate system design or operational
    differences between operational air traffic          deficiencies.
    control systems and the “baseline” systems
    tested in the computer laboratory.                 ❚❚ Quality Control Review on Privacy
                                                          Program Assessment
❚❚ Security Protection of Air Traffic Control
   System Network Connections                            Evaluate the agency’s use of personally
                                                         identifiable information, evaluate the agency’s
    Determine whether (1) FAA has taken actions          program for protecting privacy information, and
    to secure the connections between the air            make recommendations for improvement.
    traffic control network and the administrative
    networks previously identified, (2) FAA’s          ❚❚ FY 2007 Section 522 Audit of DOT Privacy
    system certification and accreditation reviews        Policies and Practices
    are effective in identifying unauthorized
                                                         Determine whether (1) the necessity of
    network connections, (3) FAA timely reported
                                                         using personally identifiable information
    unauthorized network connections to proper
                                                         for processing was properly evaluated;
    authority and tracked corrective actions in
                                                         (2) the Department has established adequate
    the POA&M database for official reporting,
                                                         procedures governing the collection, use, and
    and (4) FAA Network Control Centers have
                                                         security of personally identifiable information;
    implemented effective procedures to prevent/
                                                         and (3) Operating Administrations properly
    detect unauthorized network connections.
                                                         complied with the prescribed procedures to
                                                         prevent unauthorized access to, or unintended
                                                         use of, personally identifiable information.


	                                                                            Work Planned and in Progress	 49
Work Planned and in Progress (continued)

❚❚ FY 2008 DOT Consolidated Financial              ❚❚ Quality Control Review on FY 2008 NTSB
   Statements                                         Financial Statements
  Determine if the FY 2008 DOT Consolidated          Perform a quality control review of the audit
  Financial Statements are fairly presented, in      by an independent public accounting firm
  accordance with Governmental GAAP.                 and determine if the audit was performed in
                                                     accordance with applicable auditing standards.
❚❚ Quality Control Review on FY 2008 FAA
   Financial Statements                            ❚❚ Quality Control Review on FY 2008 SLSDC
                                                      Financial Statements
  Perform a quality control review of the audit
  by an independent public accounting firm           Perform a quality control review of the audit
  and determine if the audit was performed in        by an independent public accounting firm
  accordance with applicable auditing standards.     and determine if the audit was performed in
                                                     accordance with applicable auditing standards.
❚❚ Quality Control Review of FY 2008 FAA’s
   Franchise Fund Financial Statements             ❚❚ Oversight of IPA’s SAS Review of FAA’s
                                                      Enterprise Service Center
  Perform a quality control review of the audit
  by an independent public accounting firm           OIG is contracting with an IPA to conduct a
  and determine if the audit was performed in        SAS 70 review of the DOT Enterprise Services
  accordance with applicable auditing standards.     Center as well as perform follow-up work.




50	 Semiannual Report to Congress
Acquisition and Procurement
❚❚ Contractor Overhead and Compensation                   debarment; (3) OAs provided OST with the data
   Under Grants                                           required by the DOT Order timely; and (4) OST
                                                          entered the individuals and organizations
    Review the effectiveness and implementation of        recommended for suspension or debarment
    audit provisions in Section 307 of the National       in Excluded Parties List System timely so that
    Highway System Designation Act addressing             exclusions have Government-wide effect.
    audits of contracts awarded by states to
    engineering and design firms. Procedures include     ❚❚ Use of Cost-Plus-Award-Fee Contracts
    testing the allowability of compensation and other      Within DOT
    high overhead cost elements billed by these firms.
                                                          Determine whether cost-plus-award-fee contracts
❚❚ Department of Transportation’s                         were effectively designed and administered in the
   Suspension and Debarment Polices and                   best interest of the Government.
   Procedures
                                                         ❚❚ Review of the Use of Price and Cost
    Determine whether (1) Operating                         Analysis for Newly Awarded and Modified
    Administrations (OAs) made decisions to                 Contracts
    suspend, debar, or take other action for the
    referred cases in a timely manner; (2) OAs            Determine whether FAA performed adequate
    appropriately implemented the agreements              price and cost analysis when negotiating
    negotiated as alternatives to suspension or           amounts for non-competitive procurements.




	                                                                            Work Planned and in Progress	 51
    Statistical Performance Data

    Summary of Performance
    Office of Inspector General
    October 1, 2007 – March 31, 2008
    (Dollars in Thousands)



    Reports Issued                                   48

    Recommendations Issued                           174

    Congressional Testimonies                         7

    Total Financial Recommendations             $122,690

         That Funds Be Better Used              $115,600

         Questioned Costs                         $7,090

    Indictments                                      89

    Convictions                                      65

    Fines, Restitutions, and Recoveries         $527,625




	                                         Statistical Performance Data	 53
Audits
Completed OIG Reports
October 1, 2007 – March 31, 2008
(Dollars in Thousands) *


                                              Number of          Number of                                 Funds to be Put
               Type of Review                  Reports        Recommendations      Questioned Costs **      to Better Use


 Internal Audits
 Performance/Attestation Audits                  14                   64                    $0                 $47,100
 Financial Audits                                 9                   73                    $0                 $68,500

 Other OIG Internal Reports                       1                    0                    $0                       $0

 Total Internal Audit Reports                    24                 137                     $0               $115,600

 Grant Audits
 Audits of Grantee Under Single Audit Act        24                   37               $7,090                        $0

 TOTALS                                          48                 174                $7,090                $115,600


 * The dollars shown are the amounts reported to management. The actual amounts may change during final
   resolution.

 ** There were no recommendations for unsupported costs during the reporting period.


Department of Transportation programs and operations are primarily carried out by the Department’s
own personnel and recipients of Federal grants. Audits by DOT’s Office of Inspector General, as a result,
generally fall into three categories: internal audits of Departmental programs and operations, audits of
grant recipients, and other OIG reports. The table above shows OIG’s results for the 6 months covered by
this report.




54	 Semiannual Report to Congress
OIG Reports with Recommendations that Questioned Costs
October 1, 2007 – March 31, 2008
(Dollars in Thousands)


                                                              Number of              Number of
                                                               Reports            Recommendations            Questioned Costs *


    A.   For which no management decision had been
         made by the start of the reporting period                12                     15                     $24,510

    B.   Which were issued during the reporting period            21                     27                      $7,090

         Totals (A+B)                                             33                     42                    $31,600

    C.   For which a management decision was made
         during the reporting period                               8                     10                     $11,320
         (i)	 dollar value of disallowed costs**                   5                        6                   $10,757
         (ii)	 dollar value of costs not disallowed **             5                        6                    $2,067

    D.   For which no management decision had been
         made by the end of the reporting period                  25                     32                     $20,280

    * There were no recommendations for unsupported costs during the reporting period.

    ** Includes reports and recommendations where costs were both allowed and disallowed.




	                                                                                               Statistical Performance Data	 55
OIG Reports with Recommendations that Funds Be Put to Better Use
October 1, 2007 – March 31, 2008
(Dollars in Thousands)

                                                           Number of             Number of      Funds to be Put
                                                            Reports           Recommendations    to Better Use



A.   For which no management decision had been                  4                       4           $958,384
     made by the start of the reporting period

B.   Which were issued during the reporting period              3                       7            $115,600

     Totals (A+B)                                               7                      11        $1,073,984

C.   For which a management decision was made                   3                       7           $822,400
     during the reporting period

     (i)	dollar value of recommendations                       3*                      7*          $822,400
          that were agreed to by management *

     (ii)	dollar value of recommendations                      0*                      0*                  $0
           that were not agreed to by management *

D.   For which no management decision had been                  4                       4           $251,584
     made by the end of the reporting period


* Includes reports and recommendations where costs were both allowed and disallowed.




56	 Semiannual Report to Congress
OIG Reports Recommending Changes for Safety, Economy, or Efficiency
October 1, 2007 – March 31, 2008


                                                                          Number of Reports                Number of Recommendations



    A.       For which no management decision had been
             made by the start of the reporting period                          34                                   94

    B.       Which were issued during the reporting period                      20                                  140

             Totals: (A+B)                                                      54                                 234

    C.       For which a management decision was made
             during the reporting period *                                      30                                  174

    D.       For which no management decision had been
             made by the end of the reporting period *                          27                                   60


* Includes reports where management both made and did not make a decision on recommendations.




                                   Number of              Number of Reports with             Number                 Number of Safety,
                              Total Reports for this        Safety, Economy, or              of Total             Economy, or Efficiency
    Audit Type                  Reporting Period       Efficiency Recommendations        Recommendations            Recommendations


    Internal                        14                          10                             64                         62

    Financial                         9                          7                             73                         68

    Other                             1                          0                              0                          0

    Grants                          24                           4                             37                         10


    TOTALS                             48                            21                       174                      140

	                                                                                                    Statistical Performance Data	 57
Management Decisions Regarding OIG Recommendations
October 1, 2007 – March 31, 2008
(Dollars in Thousands)

                                               Number of           Number of             Questioned   Funds to be Put
                  Description                   Reports         Recommendations           Costs *      to Better Use


 Unresolved as of 10/01/2007                      43                  113                 $24,510       $958,384
 Audits with Findings During Current Period       40                  174                  $7,090       $115,600

 Total to be Resolved                             83                 287                  $31,600     $1,073,984

 Management Decisions:

    Audits Prior Period ‡                         22                   57                 $10,682       $725,000
    Audits Current Period ‡                       15                  134                    $637        $97,400

 Total Resolved                                   37                 191                  $11,319      $822,400

 Aging of Unresolved Audits: **

    Less than 6 months old                        26                  40                   $6,453        $18,200
    6 months – 1 year                              9                  17                  $12,428             $0
    1 year – 18 months                             2                  4                        $0        $10,684
    18 months – 2 years                            2                  8                    $1,400         $1,700
    Over 2 years old                              10                  27                        0       $221,000

 Unresolved as of 03/31/08                        49                  96               ***$20,280      $251,584

*	 There were no recommendations for unsupported costs during this reporting period.

‡	 Includes reports and recommendations where costs were both allowed and disallowed.

**	 Considered unresolved if management decisions have not been made on all report recommendations.

***	Rounding of dollars may affect total.




58	 Semiannual Report to Congress
OIG Published Reports
October 1, 2007 – March 31, 2008

FEDERAL AVIATION ADMINISTRATION
Internal Audits: Performance/Attestation – 9 reports
                                                                                                 Focus of Report/
    Report           Date                          Title                                        Recommendations

    AV-2008-002   10/26/07   Prioritization of Airport Improvement          Program projects need to be tracked and monitored
                             Program Funding                                to ensure that the program is achieving its intended
                                                                            goal to enhance capacity and reduce congestion in
                                                                            metropolitan areas
    AV-2008-004   10/31/07   FAA Needs to Improve ASDE-X Management         Program is at risk of not meeting its cost and schedule
                             Controls to Address Cost Growth, Schedule      goals and may not achieve all planned safety benefits
                             Delays, and Safety Risks
    AV-2008-021   01/14/08   FAA’s Implementation of Runway Status          FAA needs to take actions to ensure that the system
                             Lights                                         remains a viable tool for reducing runway incursions and
                                                                            that future deployment remains on schedule
    AV-2008-022   01/25/08   Review of FAA’s Final Monitor Aid Tool at      FAA needs to determine if it’s more cost effective to
                             Denver’s Terminal Radar Approach Control       maintain two terminal automation systems or integrate
                             Center                                         FMA software into one automation system
    AV-2008-026   02/26/08   Assessment of FAA’s Risk Based System for    FAA needs to improve its risk-based oversight system to
                             Overseeing Aircraft Manufacturer’s Suppliers ensure manufacturers regularly audit their suppliers
    CR-2008-028   03/03/08   Use of Air Traffic Control Services            Both air carriers and non-air carriers use the NAS and
                                                                            contribute to FAA’s costs and congestion
    CR-2008-039   12/27/07   Aviation Industry Performance Review of        Airline On-Time performance deteriorated broadly
                             Summer 2007 Aviation System Performance
    FI-2008027    02/27/08   Interim Report on Award-Fee Criteria for the   Put $18,200,000 to better use
                             National Airspace System Implementation
                             Support II Contract and Bridge Contract
    FI-2008-045   03/21/08   Assessment of Cost Accounting System and       FAA’s cost accounting sytem is properly designed to
                             Practices                                      assign costs directly, though FAA must ensure the cost
                                                                            accounting processes are properly documented



	                                                                                               Statistical Performance Data	 59
Internal Audits: Financial – 2 reports
                                                                                                Focus of Report/
Report               Date                           Title                                      Recommendations

QC-2008-005      11/09/07      Quality Control Review of Audited Financial    Unqualified opinion on financial statements
                               Statements for FY 2007 and FY 2008

QC-2008-010      11/13/07      Quality Control Review of the Audited          Unqualified opinion on financial statements
                               Financial Statements for FY 2007 and FY
                               2006 – Administrative Services Franchise
                               Fund



Grant Audits: Audits of Grantee Under Single Audit Act – 9 reports
                                                                                                 Focus of Report/
Report               Date                            Title                                      Recommendations

QC-2008-017      12/04/07      State of Illinois (also listed under Federal   $35,197 questioned
                               Highway Administration)

QC-2008-018      12/04/07      City of Bogalusa, Louisiana                    $42,300 questioned

QC-2008-019      12/19/07      Federated States of Micronesia National        $363,179 questioned
                               Government

QC-2008-035      03/06/08      Chattanooga Metropolitan Airport Authority $23,513 questioned

QC-2008-036      03/06/08      Town of Buckeye, Arizona                       $23,104 questioned

QC-2008-039      03/06/08      Beech River Regional Airport Authority         $66,667 questioned

QC-2008-041      03/12/08      City of Dunsmuir, California                   $20,981 questioned

QC-2008-043      03/12/08      City of Shreveport, Louisiana                  Improve grantee oversight

QC-2008-044      03/12/08      Jefferson County, Colorado                     $2 questioned




60	 Semiannual Report to Congress
FEDERAL HIGHWAY ADMINISTRATION
Internal Audits: Performance/Attestation – 1 report
                                                                                              Focus of Report/
    Report            Date                         Title                                     Recommendations

    MH-2008-048   03/31/08   Central Artery/Tunnel Project – Financial Plan MTA’s Plan generally complied with the FHWA
                             2007                                           Guidance except that it should be adjusted to
                                                                            correct understated insurance costs and reduce the
                                                                            amount of Federal funds available for obligation


Internal Audits: Financial – 1 report
                                                                                              Focus of Report/
    Report            Date                         Title                                     Recommendations

    QC-2008-006   11/09/07   Quality Control Review of Audited Financial    Unqualified opinion on financial statements
                             Statements for FY 2007 and FY 2006 –
                             Highway Trust Fund



Grant Audits: Audits of Grantee Under Single Audit Act – 5 reports
                                                                                              Focus of Report/
    Report            Date                         Title                                     Recommendations

    QC-2008-013   12/04/07   State of Louisiana                             $402,852 questioned

    QC-2008-016   12/04/07   Commonwealth of Pennsylvania                   $569,153 questioned

    QC-2008-017   12/04/07   State of Illinois (also listed under Federal   $94,000 questioned
                             Aviation Administration)

    QC-2008-023   01/24/08   State of Maine                                 $69,829 questioned

    QC-2008-037   03/06/08   Oglala Sioux Tribe                             $1,158,305 questioned




	                                                                                          Statistical Performance Data	 61
FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION
Internal Audits: Performance/Attestation –1 report
                                                                                               Focus of Report/
Report               Date                          Title                                      Recommendations

MH-2008-040      03/10/08      Audit of Federal Motor Carrier Safety        At the 6-month point, fewer Mexican carriers
                               Administration’s Compliance with             and vehicles have participated in the project than
                               Mexican Motor Carrier Cross-Border Safety    expected
                               Requirements—Interim and Final Audits


Grant Audits: Audits of Grantee Under Single Audit Act – 2 reports
QC-2008-014      12/04/07     State of North Dakota                        $36,422 questioned

QC-2008033       03/06/08     Government of the District of Columbia       $19,021 questioned




FEDERAL RAILROAD ADMINISTRATION
Internal Audits: Performance/Attestation –1 report
                                                                                              Focus of Report/
Report               Date                         Title                                      Recommendations

CR-2008-047     03/28/08      Effects of AMTRAK’s Poor On-Time             Amtrak revenues would increase by $111.4 million as
                              Performance                                  more travelers would choose to take the train if they
                                                                           became more confident that it would arrive on time




62	 Semiannual Report to Congress
FEDERAL TRANSIT ADMINISTRATION
Grant Audits: Audits of Grantee Under Single Audit Act – 8 reports
                                                                                           Focus of Report/
    Report            Date                          Title                                 Recommendations

    QC-2008-020   12/19/07   Greater Peoria Mass Transit District, IL     $44,452 questioned

    QC-2008-029   03/04/08   Commuter Rail Division of the Regional       Improve grantee oversight
                             Transportation Authority and the Northeast
                             Illinois Regional Commuter Railroad
                             Corporation

    QC-2008-030   03/04/08   King County, Seattle                         Improve grantee oversight

    QC-2008-031   03/06/08   City of Modesto, California                  $2,100,000 questioned

    QC-2008-032   03/06/08   County of Lackawana Transit System           $21,519 questioned
                             Authority

    QC-20080034   03/06/08   Chittenden County Transportation Authority   $256,676 questioned

    QC-2008-038   03/06/08   Topeka Metropolitan Transit Authority        $216,580 questioned

    QC-2008-042   03/12/08   Gary Public Transportation Corporation       $888,782 questioned




	                                                                                        Statistical Performance Data	 63
NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION
Internal Audits: Performance/Attestation – 2 reports
                                                                                                 Focus of Report/
Report               Date                            Title                                      Recommendations

FI-2008-003      10/29/07      Security and Controls Over the National Driver   Controls needed to enhance security protection
                               Register                                         and data timeliness and accuracy

MH-2008-046      03/25/08      Best Practices for Improving Oversight of State NHTSA developed and followed guidelines and
                               Highway Safety Programs                         procedures for oversight reviews, but weaknesses
                                                                               were identified in the annual program reviews
                                                                               making it difficult to comprehensively assess
                                                                               whether states met their goals


Internal Audits: Financial – 2 reports
                                                                                                 Focus of Report/
Report               Date                            Title                                      Recommendations

QC-2008-009      11/09/07      Quality Control Review of Audited Financial      Unqualified opinion on financial statements
                               Statements for Fiscal Years 2007 and 2006

FI-2008-025      02/01/08      Review of FY 2007 Drug Control Funds and         Unqualified opinion on financial statements
                               Performance Summary Rating


Grant Audits: Audits of Grantee Under Single Audit Act – 1 report
                                                                                                 Focus of Report/
Report               Date                            Title                                      Recommendations

QC-2008-015      12/04/07      State of New Jersey                              $637,454 questioned



NATIONAL TRANSPORTATION SAFETY BOARD
Internal Audits: Financial – 1 report
                                                                                                 Focus of Report/
Report               Date                            Title                                      Recommendations

QC-2008-009      11/09/07      Quality Control Review of Audited Financial      Unqualified opinion on financial statements
                               Statements for Fiscal Years 2007 and 2006



64	 Semiannual Report to Congress
OFFICE OF THE SECRETARY OF TRANSPORTATION
Internal Audits: Performance/Attestation –1 report
                                                                                                 Focus of Report/
    Report            Date                         Title                                        Recommendations

    FI-2008-001   10/10/07   Information Security Program                      Management did not meet Government security
                                                                               standards to protect information systems and
                                                                               did not take sufficient action to correct identified
                                                                               security deficiencies



Internal Audits: Financial – 3 reports
                                                                                                 Focus of Report/
    Report            Date                         Title                                        Recommendations

    FI-2008-011   11/13/07   Consolidated Financial Statements for FY 2007      Unqualified opinion on financial statements
                             and FY 2006


    FI-2008-012   11/15/07   Special-Purpose Financial Statements for Fiscal    Unqualified opinion on financial statements
                             Years 2007 and 2006


    FI-2008-024   01/31/08   Management Letter on Consolidated Financial        Put $45,800,000 to better use
                             Statements for FY 2007 and FY 2006



Other OIG Reports – 1 report
                                                                                                 Focus of Report/
    Report            Date                         Title                                        Recommendations

    PT-2008-008   11/15/07   Top Management Challenges                          Nine challenges identified



SAINT LAWRENCE SEAWAY DEVELOPMENT CORPORATION
Internal Audits: Financial – 1 report
                                                                                                 Focus of Report/
    Report            Date                         Title                                        Recommendations

    QC-2008-007   11/09/07   Quality Control Review of Audited Financial        Unqualified opinion on financial statements
                             Statements for FY 2007 and FY 2006



	                                                                                            Statistical Performance Data	 65
Other Audit Work Products
October 1, 2007 – March 31, 2008


In addition to providing a listing of each audit report issued to the Department and statistical tables on the
number of reports and recommendations issued, OIG completes other types of work products during the
semiannual period that contribute to the effective and efficient operations of the Department.

                             Type of Product                Number of Products


                             Briefings and Presentations             4

                             Formal Correspondence                   4

Examples of Other Work Products completed during this reporting period include:

        •	   On February 29, we responded to Chairman Waxman’s December 7, 2007, letter requesting
             that the DOT OIG provide a list of recommendations it has made from January 1, 2001,
             to the present that have not been implemented by agency officials or by Congress. We
             identified 168 key recommendations, included in 81 audit reports, which remain open for the
             Department. We also reported four key recommendations, contained in one audit report, that
             are currently open for NTSB. We defined “key” open recommendations as recommendations
             that address significant safety, security, and oversight issues, or provide financial benefits.

        •	   During the month of March, OIG staff members gave four separate briefings before the
             Senate Appropriations Subcommittee on Transportation, Housing and Urban Development;
             and before the House Appropriations Subcommittee on Transportation, Housing and Urban
             Development regarding the NAFTA Demonstration Project work.

        •	   On January 29, we issued a letter to Representative John Mica, Ranking Minority Member
             of the House Transportation and Infrastructure Committee and Representative Thomas
             Petri, Ranking Minority Member of the Committee’s Aviation Subcommittee, regarding
             our review of an incident at Oakland International Airport on September 27, 2007. The
             lawmakers requested that DOT/OIG review why 204 Marines and soldiers traveling on
             a North American Airlines chartered flight were denied access to the airport terminal
             during a layover. The service men and women were en route from Iraq to their home base
             in Hawaii. Our review found the following reasons for the action: (1) the airport’s concern
             that the flight’s ground staff could not provide an adequate level of escort and control of
             such a large group of military personnel in or around the terminal area; (2) absence of a

66	 Semiannual Report to Congress
         coordinated policy for security screening between the Department of Defense (DOD) and the
         Department of Homeland Security (DHS); (3) miscommunication about the proper storage
         and safeguarding of weapons carried on board aircraft during the layover; and (4) lack of
         communication on accommodating requests from Marines and soldiers to be allowed into
         the passenger terminal.

    •	   On December 19, we issued a letter to Chairman Oberstar in response to his request to review
         the process used in selecting the winning bid for the contract to rebuild the St. Anthony
         Falls/I-35W Bridge and determine whether that process complied with the requirements of
         23 U.S.C. 112 and 23 Code of Federal Regulations (CFR). Our review found that: 1) although
         Flatiron/Manson’s bid had the highest price and longest time frame for completion, the
         contract award process used by Mn/DOT followed the requirements of 23 U.S.C. 112 and
         23 CFR, Part 636, for design-build contracting; and; 2) the following factors influenced the
         selection of the winning bid: (a) deciding to use a best-value selection process instead of
         awarding the contract based on low bid, (b) placing greater emphasis on public relations and
         aesthetics than in previous design-bid projects, (c) establishing a new proposal evaluation
         factor called geometric enhancements, and (d) scoring certain elements of the winning bid as
         exceeding basic Request for Proposal requirements.




	                                                                        Statistical Performance Data	 67
Office of Inspector General Congressional Testimonies
October 1, 2007 – March 31, 2008


Control No.   Date        Subject                                     Before


CC-2007-102   10/10/07    The Conversion of Flight Service Stations   Committee on Transportation and Infrastructure,
                          From FAA to Contract Operations             Subcommittee on Aviation
                                                                      U.S. House of Representatives

CC-2007-100   10/17/07    Challenges Facing the Implementation        Committee on Transportation and Infrastructure,
                          of FAA’s Automatic Dependent                Subcommittee on Aviation
                          Surveillance-Broadcast Program              U.S. House of Representatives

CC-2008-007 10/18/07      Challenges Facing the U.S. Department of    Committee on Commerce, Science, and Transportation
                          Transportation, Fiscal Year 2008            United States Senate

CC-2008-013 10/25/07      Effectiveness of Federal Drunk Driving      Committee on Environment and Public Works,
                          Programs                                    Subcommittee on Transportation Safety, Infrastructure
                                                                      Security, and Water Quality
                                                                      United States Senate

CC-2008-043 2/7/08        FAA’s Fiscal Year 2009 Budget Request:      Committee on Transportation and Infrastructure,
                          Key Issues Facing the Agency                Subcommittee on Aviation
                                                                      U.S. House of Representatives

CC-2008-045 2/13/08       Actions Needed to Improve Runway Safety     Committee on Transportation and Infrastructure,
                                                                      Subcommittee on Aviation
                                                                      U.S. House of Representatives

CC-2008-049 3/11/08       Cross Border Trucking Demonstration         Committee on Commerce, Science, and Transportation
                          Project                                     United States Senate




68	 Semiannual Report to Congress
Unresolved Recommendations Over 6 Months Old

                Cited in Semiannual Report for April 1, 2000 – September 30, 2000

    Contract Towers: Observations on FAA’s Study of AV-2000-079   04/12/00
    Expanding the Program


                 Cited in Semiannual Report for October 1, 2001 – March 31, 2002

    Acquisition of the Weather and Radar Processor AV-2002-084    02/28/02


                Cited in Semiannual Report for April 1, 2003 – September 30, 2003

    Status Report on FAA’s Operation Evolution Plan AV-2003-048   07/23/03

    FAA Needs to Reevaluate STARS Costs and        AV-2003-058    09/09/03
    Consider Other Alternatives


                 Cited in Semiannual Report for October 1, 2004 – March 31, 2005

    Terminal Modernization: FAA Needs to Address   AV-2005-016    11/23/04
    its Small, Medium, and Large Sites Based on
    Cost, Time, and Capability

                Cited in Semiannual Report for April 1, 2005 – September 30, 2005

    Status of FAA’s Major Acquisitions: Cost Growth AV-2005-061   05/26/05
    and Schedule Delays Continue to Stall Air Traffic
    Modernization

    FAA’s En Route Modernization Program is on     AV-2005-066    06/29/05
    Schedule But Steps Can Be Taken to Reduce
    Future Risks

    Chicago’s O’Hare Modernization Plan            AV-2005-067    07/21/05



	                                                                            Statistical Performance Data	 69
              Cited in Semiannual Report for October 1, 2005 – March 31, 2006

Followup Audit Review of Air Traffic Controller Training AV-2006-021   12/07/05

Air Carriers Use of Non-Certificated Repair Facilities   AV-2006-031   12/15/05


              Cited in Semiannual Report for April 1, 2006 – September 30, 2006

Use of Airport Revenues by the Greater Orlando           AV-2006-056   08/03/06
Aviation Authority

Mississippi DOT Katrina Emergency Repair Contracts       MH-2006-065   09/06/06


              Cited in Semiannual Report for October 1, 2006 – March 31, 2007

Opportunities for FHWA to Free Up Unneeded Funds in MH-2007-037        03/06/07
States Affected By Hurricanes

FHWA’s Oversight for Implementing Value Engineering MH-2007-040        03/28/07




70	 Semiannual Report to Congress
                 Cited in Semiannual Report for April 1, 2007 – September 30, 2007

    Commonwealth Ports Authority                       QC-2007-045   05/15/07

    Controls Over FAA’s Conversion of Flight Service   AV-2007-048   05/18/07
    Stations to Contract Operations

    FAA’s Actions to Address Runway Incursions at      AV-2007-050   05/24/07
    Boston Logan, Chicago O’Hare, and Philadelphia
    International Airport

    Augusta, Georgia                                   QC-2007-052   06/27/07

    South Carolina Department of Transportation        QC-2007-055   07/18/07

    Washington Metropolitan Area Transit Authority     QC-2007-057   07/18/07

    State of Minnesota                                 QC-2007-058   07/18/07

    Baseline Report on Dulles                          MH-2007-060   07/27/07
    Corridor Metrorail Project

    Amtrak Board of Directors                          CR-2007-074   09/14/07




	                                                                               Statistical Performance Data	 71
              Application of Audit Project Hours by Operating Administration
              October 1, 2007 – March 31, 2008



              NOTES:                                                            RITA
                                                                       NHTSA     2%      FRA
              •	   Resources shown for OST include time                                  6%
                                                                        3%
                   spent performing audits of the DOT
                   Consolidated Financial Statements
                   (which includes all Operating
                   Administrations), Implementation
                   of the New DOT Suspension and                 OST                                       FHWA
                   Debarment Order, and the Review               22%                                        19%
                   of Actions Taken to Improve Airline
                   Customer Service and Minimize
                   Long, On-Board Delays
       FAA
       38% •	      Resources shown for FRA include time
                   spent performing audits of the National
                   Railroad Passenger Corporation.
                                                                                                                    PHMSA
              •	   There were no resources expended                                                                   2%
                   on the Maritime Administration and
                   Surface Transportation Board during       FMCSA                                                FTA
                   the reporting period.                      5%                                                  5%
              •	   Resources shown as “Other” were
                   expended on the National Sampling
                   Project for Single Audits, National                                                      Other
                   Transportation Safety Board, and                                                          1%
                   St. Lawrence Seaway Development
                   Corporation and totaled less than
                   1 percent.
                                                                                   FAA
                                                                                   35%
      MARAD
       2%
FRA
2%
              Required Statements for Semiannual Report

              The Inspector General Act requires the Semiannual Report to carry explanations if, during the reporting
              period, departmental management significantly revised management decisions stemming from an
              audit. OIG follows up on audits reported in earlier semiannual reports. During this reporting period,
              departmental management did not report any significant revisions to management decisions.

              The Act also requires descriptions of any significant decisions that departmental management made
              regarding an audit with which OIG disagrees. When the reporting period closed, there were no such
              significant decisions with which OIG disagreed.


              72	 Semiannual Report to Congress
Investigations
Judicial and Administrative Actions
October 1, 2007 – March 31, 2008

                         Indictments                                                         89
                         Convictions                                                         65
                         Years Sentenced                                                     70
                         Years Probation                                                    113
                         Years Supervised Release                                            52
                         Hours of Community Service                                         940

                         Employee Terminations                                                2
                         Employee Suspensions                                                 2
                         Employee Reprimand                                                   1
                         Employee Resignations/Retirements                                    7
                         Employee Counseling                                                  1
                         Debarments/Suspensions                                              23
                         Federal funding/participation suspended                              1
                         Federal funding/participation terminated                             1
                         Decertified - State                                                  5
                         License/certificate Permit suspended/revoked/terminated              4
                                               Financial Impact
                         Fines:                                                      $12,804,122
                         Restitution/Civil Judgments:                               $473,303,530
                         Federal Recoveries:                                         $11,412,166
                         Administrative Recoveries:                                 $20,580,508
                         State Recoveries                                            $9,524,407
                         Total                                                     $527,624,733

During the 6 month period covered by this report, 92 cases were opened and 130 were closed, leaving
a pending caseload of 441. In addition, 168 cases were referred for prosecution, 131 were accepted for
prosecution, and 67 were declined. As of March 31, 2007, 27 cases were pending before prosecutors.


	                                                                                           Statistical Performance Data	 73
Profile of All Pending Investigations as of March 31, 2008
                                                                                    Types of Cases
                                                          Number      Contract/    Employee    Aviation   Motor     HazMat   Other
                                                          of Cases   Grant Fraud   Integrity    Safety    Carrier
                                                                                                          Safety


Federal Aviation Administration                             152         34            30         73         0        7        8
Federal Highway Administration                              142         131            4         0          0        0        7
Federal Railroad Administration                              11          2             2         0          0        5        2
Federal Transit Administration                               27         26             0         0          0        0        1
Maritime Administration                                       7          3             3         0          0        1        0
Federal Motor Carrier Safety Administration                 58           2             7         0          39       5        5
Office of the Secretary                                      14          3            10         0          0        0        1
Pipeline and Hazardous Materials Safety Administration       17          0             1         0          0        16       0
Research and Innovative Technology Administration             5          2             3         0          0        0        0
National Highway Traffic Safety Administration                7          2             1         0          1        0        3
National Transportation Safety Board                          1          0             1         0          0        0        0

Totals                                                     441         205           62          73        40        34      27

Percent of Total:                                        100%          46%          14%        17%        9%        8%       6%


Application of Investigative Project Hours by Priority Area
October 1, 2007 – March 31, 2008
                                                         OTHER
                                                          12%
                                                                                   AVIATION SAFETY
                                                                                         18%
                         MOTOR CARRIER SAFETY & FRAUD
                                     8%



                                         HAZMAT
                                           6%




                               EMPLOYEE INTEGRITY
                                     11%
                                                                                        CONTRACT/GRANT FRAUD
                                                                                                45%




74	 Semiannual Report to Congress
Application of Investigative Project Hours by Operating Administration
October 1, 2007 – March 31, 2008


                                           PHMSA
                                     OST     3%
                                     2%
                             NHTSA
                              7%
                     FMCSA
                      2%                                        FAA
                                                                38%




                     FHWA                                      MARAD
                      37%                                       2%
                                                         FRA
                                                         2%
                                                   FTA
                                                   7%




	                                                                 Statistical Performance Data	 75
                 2007 Awards and Recognition



    O
              n November 15, 2007, a ceremony was held in Washington, D.C.
              to recognize Office of Inspector General employees for their
               contributions over the preceding year. The Inspector General
    also recognized OIG employees receiving awards for their accomplishments
    from the Secretary of Transportation, the President’s Council on Integrity
    and Efficiency, and other local, state, and Federal agencies and councils.




	                                                                     Awards & Recognition	 77
                        Secretarial Awards and Recognition
                              Partnering for Excellence Award
  This is the second-highest award within the Department of Transportation. This award recognizes
    intermodal teams and groups that have used the Partnership for Excellence Model to further
         ONE‑DOT activities supporting one or more of the Department’s strategic plan goals.



            Aviation Safety – Suspected Unapproved Aircraft Parts Team
This award is given to recognize the successful and unprecedented partnership between the Federal
Aviation Administration (FAA) and Office of Inspector General (OIG) to combat “Suspected Unapproved
Parts” (SUPs) on a national and international level.

OIG                                                         FAA
Harry Schaefer, Director National Investigative Programs    Beverly Sharkey      Dalton Fortney
Michelle T. McVicker, Special Agent-in-Charge               Kenneth Reilly       Danny Billman
Theodore L. Doherty III, Special Agent-in-Charge            Roger Heard          Raymon Taylor
Hank W. Smedley, Special Agent-in-Charge                    Glenn Lanter         Angelina Mack
Thomas K. Lehrich, Chief Counsel                            Derek Cheatham       Tony Janco
Elise S. Woods, Assistant Special Agent-in-Charge           Bob Franklin         Rand Foster
Barbara L. Barnet, Senior Special Agent
                                                            Ken Gardner          Martha Farmer
Eileen Vidal-Codispot, Assistant Special Agent-​in-Charge
                                                            Mark Hemmerle        John Tipton
Paul L. Blake, Senior Special Agent
Franklin H. Davenport, Senior Special Agent                 Les Moneiro          Calvin Tillman
Richard M. McGrade, Senior Special Agent                    Maria Papageorgiou   Maurice Nakagawa
Charles V. Miller, Senior Special Agent                     Susan Trask          Diane Millam
Michael J. Purcell, Senior Special Agent                    Adrian Wright        Gerald Mestell
Gerard H. Tucker, Jr., Senior Special Agent                 Al Michaels          Stephen Bray
Carlos A. Vazquez, Senior Special Agent                     Barbara Vance        Maryetta Broyles




78	 Semiannual Report to Congress
                        Award for Meritorious Achievement
          This award is given by the Secretary in recognition of meritorious service to DOT
          and the Federal government, and for exceptional achievement which substantially
              contributed to the accomplishment of DOT’s mission or major programs.

               Daniel R. Raville                                       Max D. Smith
               Program Director                                   Special Agent-In-Charge
            JA-10, Washington, D.C.                                JRI-6, Fort Worth, TX



                                    Award for Excellence
           This award is granted to employees who have achieved outstanding performance
                   in all aspects of their work, warranting special commendation.

             Christina H. Lopez                                     Joanne M. Pittman
            Administrative Assistant                            Human Resources Specialist
            JA-20, Washington, D.C.                              JM-20, Washington, D.C.


                                          Team Award
    This award is in recognition of meritorious contributions of high value to the Department in
    meeting one or more of the Strategic Goals, and exceptional performance which results in the
     improvement, reinvention, or reengineering of practices, operations, and customer service.


               OIG Central Artery/Tunnel Team for Reopening of the
                 Central Artery/Tunnel and the Commonwealth of
                   Massachusetts’ Stem to Stern Safety Review
This team made meritorious contributions to the Department in responding to the ceiling collapse in the
Central Artery/Tunnel (CA/T) Project in Boston.
                                 Rodolfo E. Perez, Engineer Advisor
                                 Thomas E. Yatsco, Program Director
                                   Eric N. Mader, Project Manager
                                  Anne-Marie C. Joseph, Engineer
                                   Donald J. Lango, Senior Auditor
                                    Aron O. Wedekind, Engineer
                                   Charles H. Wilson IV, Analyst

	                                                                                Awards & Recognition	 79
                           Inspector General Special Honors
                                    U.S. Active Duty Military
              OIG employees called to active duty from November 2006 – November 2007.

                                           Peggy Moskaluk
                                         Ramon Sanchez, Jr.


                                    Career Service Recognition
      OIG employees who have attained 30 or more years of Federal service as of the end of 2007.

                                         Alvin Schenkelberg
                                            Gary W. Kirk
                                       Raymond H. Denmark, Jr.
                                        Gerald L. Blumenthal
                                          Patricia K. Stevens
                                           Samuel Davis, Jr.
                                         Nancy J. Martemucci
                                            Judy W. Nadel
                                           Robert D. Falter
                                          Harriet E. Lambert




80	 Semiannual Report to Congress
                                Inspector General Awards
                                            Team Award
            This award is granted to an OIG office, team, or workgroup whose performance
                 exemplifies teamwork and whose efforts contribute greatly toward the
                   mission, goals, and operations of the Office of Inspector General.


                                Quality Assurance Review Team
This team demonstrated superior performance in conducting quality assurance reviews of Inspector
General audit operations.
                                   Richard A. Kaplan, Program Director
                                     Allan J. Reid, Program Manager


                     Review of Airline Customer Service Issues Team
This team performed in an outstanding manner in providing Congress critical information on the airline
industry’s commitment to improve air travel.
        Scott K. Macey, Program Director                           Gerald L. Blumenthal, Auditor
       Thomas K. Lehrich, Senior Counsel                               Gloria J. Echols, Auditor
      Petra Swartzlander, Senior Statistician                            Rita L. Fox, Auditor
        Robert D. Falter, Project Manager                           Carlton H. Hamilton, Auditor
      Marshall E. Jackson, Project Manager                             Lisa T. Mackall, Auditor
         David W. Brown, Senior Analyst                              Amitra Mamdouhi, Analyst
      Sandra M. DeLost, Senior Information                         Meredith C. McDaniel, Analyst
              Technology Specialist                               Jeannette M. McDonald, Analyst
       Christopher S. Frank, Senior Auditor                      Andrea J. Nossaman, Writer-Editor
        Anne V. Longtin, Senior Auditor                               Akilah A. Boston, Analyst
          Judy W. Nadel, Senior Auditor                               Arthur B. Jacobs, Analyst
       Karen B. Thompson, Senior Analyst                             Jonathan K. Tsang, Analyst
           Kim P. Tieu, Senior Auditor                               Gitanjali B. Borkar, Analyst
      Adrienne M. Williams, Senior Auditor                          Louis H. Burrell III, Analyst




	                                                                                     Awards & Recognition	 81
                                       Comair Audit Team
This team performed in an outstanding manner in conducting a review of staffing during midnight shifts
at FAA combined radar approach control and tower with radar facilities.
      Daniel R. Raville, Program Director                      Andrea J. Nossaman, Writer-Editor
     Petra Swartzlander, Senior Statistician                     Benjamin R. Huddle, Analyst
      Marshall E. Jackson, Project Manager                         Amy N. Thomas, Analyst
     Angela D. McCallister, Project Manager



           Security and Controls Over the National Driver Register Team
This team demonstrated outstanding performance in conducting a review of the security and controls
over NHTSA’s National Driver Register (NDR).
     Edward A. Densmore, Program Director                      James F. Mallow, Senior Auditor
       Nathan J. Custer, Project Manager                     Christopher M. Cullerot, Information
       Michael P. Fruitman, Writer-Editor                            Technology Specialist
      Dr. Ping Zhong Sun, Project Manager                     Vasily G. Gerasimov, Information
      Mitchell Balakit, Senior Information                           Technology Specialist
              Technology Specialist                           Martha A. Morrobel, Information
     Henry S. Lee, Senior Computer Scientist                         Technology Specialist



            NAFTA Cross-Border Trucking Demonstration Project Team
This team exhibited superior skill in completing this project. The team was faced with a challenging task
in completing this audit, which required contacts with state officials throughout the country and field
work at the southern border and in Mexico.
      Joseph W. Comé, Program Director                           Maurice Toval, Senior Auditor
      Thomas K. Lehrich, Senior Counsel                        Marvin E. Tuxhorn, Senior Auditor
        Joan M. Becker, Project Manager                           William C. Denno, Auditor
      Seth B. Kaufman, Associate Counsel                         Constance B. Hardy, Analyst
       David P. Pouliott, Project Manager                         Calvin L. Moore II, Analyst
     Kimberley A. Bolding, Senior Auditor                      Andrea J. Nossaman, Writer-Editor
    Christopher T. Brothers, Senior Analyst                         Rosa L. Scalice, Auditor
       Patrick D. Conley, Senior Auditor                          Scott L. Williams, Analyst
    Nathan P. Richmond, Legislative Counsel                      Michael Masoudian, Analyst
       Anthony V. Saraco, Senior Auditor                           Regan K. Maund, Analyst
       Gerard J. Sheeran, Senior Auditor                         Kathleen B. Conway, Analyst

82	 Semiannual Report to Congress
    Growth in Highway Construction and Maintenance Costs Report Team
This team demonstrated superior performance in providing an economic analysis that is both timely
and is likely to play a significant role in the debates over the appropriate level of funding to include in
the upcoming reauthorization of the bill treating federal aid to highways.
                                   Mitchell L. Behm, Program Director
                                      Betty A. Krier, Project Manager
                                  Keith A. Klindworth, Senior Economist
                                    Harriet E. Lambert, Writer-Editor
                                        Jovanny Roque, Economist
                                       Aron O. Wedekind, Engineer


                                 DBE Fraud Investigation Team
This joint U.S. DOT/Virginia DOT investigation determined that English Construction Company of
Lynchburg, Virginia engaged in a scheme to intentionally misrepresent compliance with the U.S. DOT
Disadvantaged Business Enterprise (DBE) program for the purpose of obtaining more than $130 million
in federally funded highway construction projects in Virginia.
                              Franklin H. Davenport, Senior Special Agent
                            Thomas J. Bondurant, Jr., U.S. Attorney’s Office
              John Reus, Virginia Department of Transportation, Office of Inspector General


                                            JM-10 IT Team
The JM-10 IT team performed in an extraordinary and noteworthy manner conducting several crucial
IT projects with OIG-wide impact.
                                          Jacquelyn R. Weber, CIO
                           James F. Heminger, Information Technology Specialist
                             Scott A. Florcsk, Information Technology Specialist
                          Jeffrey W. Germann, Information Technology Specialist
                            Marisol Vasquez, Information Technology Specialist
                             Daniel C. Arce, Information Technology Specialist
                           Sheila Payne Davis, Information Technology Specialist
                            Siron M. Weaver, Information Technology Specialist
                            Bradley F. Dunn, Information Technology Specialist




	                                                                                      Awards & Recognition	 83
                                    New Building Move Team
The outstanding performance of critically important tasks by this team in support of the new HQ Building
move project resulted in an extremely organized and successful move of all OIG Headquarters staff to
the new DOT HQ Building.
                                         Jacquelyn R. Weber, CFO
                                   Richard A. Kaplan, Program Director
                                      Omer G. Poirier, Senior Counsel
                        Dorothy B. Bowie, Senior Administrative Services Specialist
                                    Ernest Eigenbrode, Project Manager
                                 Michael L. Marshlick, Computer Scientist
                                Alfred Parnell, Human Resources Specialist
                                       Allan J. Reid, Project Manager
                                   Margaret E. Uckert, Project Manager
                         Eileen Vidal-Codispot, Assistant Special Agent-in-Charge
                                    Amanda D. Barton, Senior Analyst
                                     Coletta A. Treakle, Senior Analyst
                                   Nancy J. Martemucci, Staff Assistant
                                Odessa M. Pyles, Support Services Specialist
                              Lorena M. Simpson, Support Services Specialist
                                         Andrew J. Sourlis, Analyst
                            Patricia K. Stevens, Management Support Specialist
                               Christina H. Lopez, Administrative Assistant
                            Ernestine M. Anderson, Support Services Specialist
                            Angela R. Hailes, Investigative Program Technician
                                      Sylvia V. Medina, Staff Assistant
                                   Regina L. Raiford, Paralegal Specialist
                                        Frances L. Stubbs, Secretary
                                          Lisa Edouard, Secretary
                                       Brenda R. Headley, Secretary




84	 Semiannual Report to Congress
                             Award for Superior Achievement
     This is the highest award granted by the Inspector General. It recognizes performance of assigned
    duties in such an exemplary manner as to inspire others, demonstration of unusual initiative or skill
      in the development of new or improved work methods and procedures, and notable authorship.

                                              Todd J. Zinser
                                         Deputy Inspector General
                                            Washington, D.C.

                                            Joseph W. Comé
                                            Program Director
                                         JA-40, Washington, D.C.

                                          Jeffrey W. Germann
                                    Information Technology Specialist
                                         JM-10, Washington, D.C.


                           Exceptional Civilian Service Award
                   This is the second-highest award granted by the Inspector General,
             recognizing performance that is exceptional among peers, extraordinary results,
                 and other exemplary performance as deemed by the Inspector General.

                 Patricia K. Stevens                                    John W. Long
           Management Support Specialist                            Special Agent-In-Charge
              JA-2, Washington, D.C.                                     JRI-4, Atlanta

                 Ernest Eigenbrode                                    Dorothy B. Bowie
                   Project Manager                          Senior Administrative Services Specialist
               JA-10, Washington, D.C.                              JM-10, Washington, D.C.

                   Earl C. Hedges                                     Todd A. Damiani
                  Program Director                                    Senior Special Agent
                  JA-20, Baltimore                                     JRI-1, Meriden, CT




	                                                                                  Awards & Recognition	 85
                              Marguerite Christensen Award
                             for Excellence in Administration
    This is the third-highest award in the OIG. It recognizes professionalism, technical excellence,
       and dedication in providing administrative support to the Office of Inspector General.
                                            Odessa M. Pyles
                                        Support Services Specialist
                                         JM-10, Washington, D.C.


                                    Manager of the Year Award
    This award is granted to managers who demonstrate exemplary contributions toward achieving
           the mission and goals of the OIG, and management of personnel and resources.

                 Michelle C. Hill                                       Mitchell L. Behm
        Director of Audit Planning, Policy,                              Program Director
              and Technical Support                                   JA-50, Washington, D.C.
             JA-2, Washington, D.C.
                                                                      Jim H. Crumpacker
              Matthew E. Hampton                               Director, National Investigative
                 Program Director                                 Programs & Operations
              JA-10, Washington, D.C.                              JI-2, Washington, D.C.

                 Rodolfo E. Pérez                                      Jacquelyn R. Weber
                 Engineer Advisor                                            CFO/CIO
              JA-40, Washington, D.C.                                 JM-10, Washington, D.C.

                Thomas E. Yatsco
                 Program Director
              JA-40, Washington, D.C.




86	 Semiannual Report to Congress
                             Supervisor of the Year Award
    This award is granted to supervisors who demonstrate exemplary contributions toward achieving
            the mission and goals of the OIG, and management of personnel and resources.
                                         Robert D. Falter
                                          Project Manager
                                      JA-10, Washington, D.C.

                                      Angela D. McCallister
                                          Project Manager
                                      JA-10, Washington, D.C.

                                         George E. Banks
                                          Project Manager
                                          JA-20, Baltimore

                                          Eric N. Mader
                                          Project Manager
                                      JA-40, Washington, D.C.

                                         Debra L. Mayer
                                          Project Manager
                                      JA-50, Washington, D.C.

                                        Michael J. Waters
                                 Assistant Special Agent-In-Charge
                                       JRI-2, King of Prussia




	                                                                             Awards & Recognition	 87
                                    Employee of the Year Award
           This award is granted to employees who demonstrate dedication and special effort
              which exceed performance expectations and contribute significantly to the
                          mission and goals of the Office of Inspector General.

              Andrea J. Nossaman                                 William L. Swallow
                   Writer-Editor                           Assistant Special Agent-in-Charge
              JA-10, Washington, D.C.                               JRI-2, Riverside

              Michael L. Marshlick                              Robert C. Brautigam
                Computer Scientist                                Senior Special Agent
              JA-20, Washington, D.C.                            JRI-2, King of Prussia

                  Aisha N. Evans                                 Melissa E. Ehlinger
                  Senior Auditor                                   Attorney-Advisor
              JA-20, Washington, D.C.                              JRI-3, New York

                 James F. Mallow                                   Scott V. Harding
                  Senior Auditor                                  Senior Investigator
              JA-20, Washington, D.C.                           JRI-3, Washington, D.C.

                 Jill L. Cottonaro                              Carlton D. Richmond
                      Analyst                                         Investigator
              JA-20, Washington, D.C.                           JRI-3, Washington, D.C.

                   Brian J. Frist                                 George F. Sullivan
                   Senior Auditor                                  Senior Investigator
                  JA-20, Baltimore                                   JRI-5, Chicago

               Margaret E. Uckert                                  Scott A. Florcsk
                  Project Manager                          Information Technology Specialist
              JA-40, Washington, D.C.                           JM-10, Washington, D.C.

            Christopher T. Brothers                              Lorena M. Simpson
                  Senior Analyst                               Support Services Specialist
              JA-40, Washington, D.C.                           JM-10, Washington, D.C.

                  Jovanny Roque
                     Economist
              JA-50, Washington, D.C.

88	 Semiannual Report to Congress
    Paul W. Kimbrough, Sr. Award for Public and Community Service
         This award is granted to any OIG employee who exhibits exceptional dedication to
        public/community service, either associated with a DOT or other Federally-sponsored
                  program or initiative, or privately within his or her community.
                                      Stefanie Z. McCans
                                             Analyst
                                          JA-10, Atlanta


               Administrative Professional of the Year Award
             This award is granted to administrative or clerical employees who provide
                  outstanding support to the success of the organization or office.
                                      Constance C. Wiley
                                          Staff Assistant
                                      JA-1, Washington, D.C.

                                       Sherry K. Dionne
                                 Investigative Program Technician
                                         JRI-1, Cambridge

                                       Sandra M. Roper
                                 Investigative Program Technician
                                           JRI-4, Atlanta




	                                                                             Awards & Recognition	 89
                                     New Employee Award
       This award is granted to new Federal employees who excel in performance of assignments
            and demonstrate significant initiative in developing and furthering their skills.


             Kevin M. Montgomery                                Allison M. Horkan
                      Analyst                                          Auditor
              JA-10, Washington, D.C.                          JA-20, Washington, D.C.

                 Amy N. Thomas                                   Regan K. Maund
                        Analyst                                        Analyst
                                                               JA-40, Washington, D.C.
                 Taniesha L. Snell
                       Analyst                                 Charles H. Wilson IV
                    JA-10, Atlanta                                     Analyst
                                                               JA-40, Washington, D.C.
               Gitanjali G. Borkar
                       Analyst                                   Dr. Chia-Mei Liu
                JA-10, San Francisco                                  Economist
                                                               JA-50, Washington, D.C.
               Vasily T. Gerasimov
        Information Technology Specialist                        Bradley F. Dunn
             JA-20, Washington, D.C.                      Information Technology Specialist
                                                               JM-10, Washington, D.C.




90	 Semiannual Report to Congress
       President’s Council on Integrity and Efficiency Awards
                              Award for Excellence – Audit

            Audit Team for the Review of Air Traffic Controller Staffing
                             During Midnight Shifts
This team received an award for their outstanding efforts in conducting a review of staffing during
midnight shifts at FAA combined radar approach control and tower with radar facilities.
                                  Daniel R. Raville, Program Director
                                 Petra Swartzlander, Senior Statistician
                                  Marshall E. Jackson, Project Manager
                                 Angela D. McCallister, Project Manager
                                  Andrea J. Nossaman, Writer-Editor
                                     Benjamin R. Huddle, Analyst
                                       Amy N. Thomas, Analyst


                       Highway-Rail Grade Crossing Safety Team
This team received an award for its exceptional audit work in evaluating the Department of Transportation’s
progress in improving safety at the Nation’s highway-rail grade crossings and reducing the number of
collisions and fatalities.
                                  Brenda R. James, Program Director
                                   Thomas K. Lehrich, Chief Counsel
                                 Petra Swartzlander, Senior Statistician
                            Michael P. Fruitman, Communications Advisor
                                   Stephen Gruner, Project Manager
                                  Wendy M. Harris, Project Manager
                          William E. Savage, Information Technology Specialist
                          Sandra M. DeLost, Information Technology Specialist
                                   Harriet E. Lambert, Writer-Editor
                                Nathan P. Richmond, Legislative Counsel
                                    Audrey L. White, Senior Analyst
                                  Andrea J. Nossaman, Writer-Editor
                                     Stephanie L. Grissom, Analyst
                                      Michael Masoudian, Analyst


	                                                                                  Awards & Recognition	 91
                                      Other Recognition
                  Greggory S. Bond                           Kathryn A. Jones
              2007 – 2008 Who’s Who                     DC Office of Inspector General
              Strathmore’s Who’s Who                      Letter of Commendation

               Dorothy B. Bowie                            Anne-Marie C. Joseph
          New HQ Building Team Award                         Appreciation Award
           Secretary of Transportation              National Association of Pipeline Safety

                 Todd A. Damiani                              Seth B. Kaufman
             Certificate of Appreciation             President’s Volunteer Service Award
               U.S. Attorney’s Office                    Secretary of Transportation

            Franklin H. Davenport                             Charles V. Miller
      Recognition for Successful Prosecution                Letter of Appreciation
              of a DOT Contractor                           U.S. Attorney’s Office
           U.S. Department of Justice
                                                              Dennis M. Ocampo
               Brian A. Dettelbach                          Letter of Commendation
    Council of Counsels to Inspectors General   Secretary of Transportation, U.S. Department of
                Legislative Award                       Justice and District of Columbia

                 Scott A. Florcsk                                Joe O’Haver
          New HQ Building Team Award                        Letter of Appreciation
           Secretary of Transportation                 Federal Aviation Administration

                 Malik J. Freeman
             Letter of Commendation
             DC Inspector General and
             U.S. Department of Justice




92	 Semiannual Report to Congress
                          Other Recognition, continued
              Michael J. Purcell                           Ramon Sanchez, Jr.
             FBI Director’s Award             Outstanding Heroism Award (for Service in Iraq)
                                                     Atlanta Federal Executive Board
           Certificate of Appreciation
                                                   Excellence in Law Enforcement Award
             U.S. Attorney’s Office
                                                     League of United Latin American
                                                             Citizens (LULAC)
           Certificate of Appreciation
             U.S. Attorney’s Office
                                                          Jacquelyn R. Weber
                                                      New HQ Building Team Award
           Certificate of Appreciation                 Secretary of Transportation
             U.S. Attorney’s Office
                                                            Bradley D. Wheeler
              Odessa M. Pyles                    Special Achievement in Public Corruption
        New HQ Building Team Award                         Investigations Award
         Secretary of Transportation                Atlanta Inspector General Council

              Bruce A. Quintero III                          Elise S. Woods
            William R. Barton Award               Recognition for Successful Prosecution
    Federal Law Enforcement Training Center               of a DOT Contractor
                                                       U.S. Department of Justice
              Robin Redd-Miller
           Special Recognition Award                      Joseph M. Zschiesche
                                                           Achievement Award
             Lonnie G. Robertson                     Federal Aviation Administration
             Letter of Appreciation
              New Mexico DOT




	                                                                  Statistical Performance Data	 93
                                       In Memoriam . . .
     This semiannual period was marked by the death of a long-time OIG employee, David Brown,
     who made a significant impact on the organization. David Brown touched the hearts of the
     people he worked with and will be deeply missed.

     David Brown

     David Brown joined the Office of Inspector          David also provided integral expertise
     General (OIG) in 1989 as an auditor with        on numerous audit and congressional
     the Fort Worth, Texas, Regional Office.         testimony assignments that focused on
         In his early years with the OIG, David      diverse issues across the transportation
     worked on audits of mass transit agencies’      spectrum, including the high profile cross-
     compliance with the Americans with              border trucking provisions of the North
     Disabilities Act and several airport revenue,   American Free Trade Agreement.
     aviation inspection, and maritime audits.           David’s outstanding performance
         As a senior analyst, David became           was recognized through the numerous
     an integral part of nationwide audit and        OIG and PCIE awards he received
     testimony teams that were instrumental          throughout his 19 years with the OIG.
     in the achievement of important improve­        A lifelong member of the University
     ments in motor carrier safety enforce­          Christian Church in Fort Worth, Texas,
     ment programs and quality data used to          David was an elder and active member
     monitor the trucking industry, as well as       in many phases of the church. David had
     recommending improvements in airport            many friends and colleagues in the OIG
     security and airline customer service.          and we will all miss him a great deal.




	94	 Semiannual Report to Congress                                                      In Memoriam	 94
                                 Mission and Organization
    The Office of Inspector General for the Department of Transportation was created by Congress through
          the Inspector General Act of 1978 (Public Law 95–452). The Act sets several goals for OIG:

          n	 To conduct or supervise objective audits and investigations of the Department’s programs
             and operations;

          n	 To promote economy, effectiveness, and efficiency within the Department;

          n	 To prevent and detect fraud, waste, and abuse in the Department’s programs;

          n	 To review existing and proposed laws or regulations affecting the Department and make
             recommendations about them;

          n	 To keep the Secretary of Transportation and Congress fully informed about problems in
             departmental programs and operations.


                              OIG FY 2008 PROGRAM-LEVEL RESOURCES
                                          Total: $73,480,348
OIG is divided into two major
units and six support units.                                                    Other
The major units are the Office                                             $9,365,788
of the Principal Assistant
Inspector General for Auditing
and Evaluation and the Office
of Assistant Inspector General
for Investigations. Each has                               Rent
                                                     $4,710,000
headquarters staff and field staff.
The support units are the Office            Working Capital Fund
of Legal, Legislative and External                  $3,195,510

Affairs; the Office of Human                              Travel
Resources; the Office of Chief                       $2,450,000
Financial Officer; the Office of          Advisory and Assistance
Chief Information Officer; the                          Contracts
                                                       $685,000
Office of Administration and
Procurement Services; and the            Personnel Compensation
                                                     and Benefits
Office of Quality Assurance                         $53,074,050
Reviews/Internal Affairs.

	                                                                            Statistical Performance Data	 95
	96	 Semiannual Report to Congress



                                                                                      U.S. Department of Transportation
                                                                                         Office of Inspector General


                                                                                                    Inspector General




                                                                                                         Deputy
                                                                                                    Inspector General




                                                                                                                                                        Assistant Inspector
                                                                                 Assistant Inspector                   Principal Assistant
                                            Assistant Inspector                                                                                          General for Legal,
                                                                               General for Washington                  Inspector General
                                          General for Investigations                                                                                      Legislative, and
                                                                               Investigative Operations            for Auditing & Evaluation
                                                                                                                                                          External Affairs




                                                                     Assistant Inspector           Assistant Inspector            Assistant Inspector
                                       Assistant Inspector                                                                                                   Assistant Inspector
                                                                   General for Financial &             General for                 General for Rail &
                                      General for Aviation &                                                                                               General for Acquisition &
Mission and Organization	 96




                                                                   Information Technology          Highway & Transit              Maritime Audits and
                                     Special Program Audits                                                                                                  Procurement Audits
                                                                           Audits                       Programs                  Economic Analysis




                                        Deputy Assistant                                             Deputy Assistant
                                       Inspector General                                            Inspector General
                                         for Aviation &                                               for Highway &
                                     Special Program Audits                                          Transit Programs
                                                        Contacts
    Inspector General
    Calvin L. Scovel III....................................................................................(202) 366-1959

    Deputy Inspector General
    Theodore P. Alves..................................................................................... (202) 366-1992

    Assistant Inspector General for Legal, Legislative, and External Affairs
    Brian A. Dettelbach.................................................................................. (202) 366-8751

    Principal Assistant Inspector General for Auditing and Evaluation
    David A. Dobbs..........................................................................................(202) 366-1427

    Assistant Inspector General for Investigations
    Charles H. Lee, Jr...................................................................................... (202) 366-1967

    Assistant Inspector General for Washington Investigative Operations
    Rick Beitel.................................................................................................. (202) 366-1972

    Assistant Inspector General for Aviation and Special Program Audits
    Lou Dixon..................................................................................................(202) 366-0500

    Deputy Assistant Inspector General for Aviation and Special Programs
    Matt Hampton...........................................................................................(202) 366-0500

    Assistant Inspector General for Financial and Information Technology Audits
    Rebecca C. Leng........................................................................................ (202) 366-1488

    Assistant Inspector General for Highway and Transit Audits
    Joe Come (Acting).................................................................................... (202) 366-5630

    Assistant Inspector General for Rail and Maritime Audits and Economic Analysis
    David Tornquist........................................................................................ (202) 366-9970

    Assistant Inspector General for Acquisition and Procurement Audits
    Mark Zabarsky.......................................................................................... (202) 366-5225




	                                                                                                        Statistical Performance Data	 97
                       Abbreviations
    AF-OSI 	   Air Force Office of Special Investigations
    AICPA 	    American Institute of Certified Public Accountants
    AIP	       Airport Improvement Program
    AIR-21	    Aviation Investment and Reform Act for the 21st Century
    AAAE	      American Association of Airport Executives
    ASAP	      Aviation Safety Action Programs
    ASDE-X	    Airport Surface Detection Equipment-Model X
    ATC	       Air Traffic Control
    ATO	       Air Traffic Organization
    ATOS	      Air Transportation Oversight System
    CDLIS 	    Commercial Drivers License Information System
    CDL 	      Commercial Drivers License
    CFO 	      Chief Financial Officer
    CID	       Criminal Investigations Division
    CIO	       Chief Information Officer
    DBE	       Disadvantaged Business Enterprise
    DCAA	      Defense Contract Audit Agency
    DCIS	      Defense Criminal Investigative Service
    DHS 	      Department of Homeland Security
    DOJ	       Department of Justice
    DOT	       Department of Transportation
    EPA	       Environmental Protection Agency
    FAA	       Federal Aviation Administration
    FBI	       Federal Bureau of Investigation
    FHWA	      Federal Highway Administration
    FISMA	     Federal Information Security Management Act
    FMCSA	     Federal Motor Carrier Safety Administration
    FRA	       Federal Railroad Administration
    FTA	       Federal Transit Administration
    FTI	       FAA Telecommunications Infrastructure
    FY	        Fiscal Year
    GAO	       Government Accountability Office
    HAZMAT	    Hazardous Material
    HTF	       Highway Trust Fund

	                                                                        Abbreviations	 99
            IG	                      Inspector General
            IRB	                     Investment Review Board
            IRS	                     Internal Revenue Service
            IT	                      Information Technology
            JPDO	                    Joint Planning and Development Office
            MARAD	                   Maritime Administration
            MCSIA	                   Motor Carrier Safety Improvement Act
            MOU	                     Memorandum of Understanding
            MTA	                     Metropolitan Transportation Authority
            NAFTA	                   North American Free Trade Agreement
            NATCA	                   National Air Traffic Controllers Association
            NAS	                     National Airspace System
            NCIS	                    Naval Criminal Investigative Service
            NDR	                     National Driver Register
            NHTSA	                   National Highway Traffic Safety Administration
            NTSB	                    National Transportation Safety Board
            OA	                      Operating Administration
            OCIO	                    Office of Chief Information Office
            OIG	                     Office of Inspector General
            OMB	                     Office of Management and Budget
            OPM	                     Office of Personnel Management
            OSI	                     Office of Special Investigations
            OST	                     Office of the Secretary of Transportation
            PCIE	                    President’s Council on Integrity and Efficiency
            PHMSA	                   Pipeline and Hazardous Materials Safety Administration
            QCR	                     Quality Control Review
            RITA	                    Research and Innovative Technology Administration
            SAFETEA-LU	              Safe, Accountable, Flexible, Efficient Transportation
            	                        Equity Act: A Legacy for Users
            SAS-70	                  Statement on Auditing Standards Number 70
            SafeStat	                Safety Status Measurement System
            SLSDC	                   St. Lawrence Seaway Development Corporation
            TEA-21	                  Transportation Equity Act for the 21st Century




100	 Semiannual Report to Congress
                                                                                                                 Semiannual
                                                                                                           Report to Congress
                                                                                                             OCTOBER 1, 2007 – MARCH 31, 2008




                                          U.S. Department of Transportation
                                                Office of Inspector General
                                               1200 New Jersey Avenue, SE
                                                 Washington, D.C. 20590


                                      Hotline to report fraud, waste, and abuse:
                                              Phone:     800–424–9071
                                                 Fax:    540–373–2090              OFFICE OF INSPECTOR GENERAL
                                              E-mail:    hotline@oig.dot.gov       U.S. Department of Transportation
                                         OIG Web site:   http://www.oig.dot.gov



Trans5_Cover_wSpine_PMS287.indd 4-1                                                                                                      5/19/08 4:26:29 PM
